<html>
<title> - LEGISLATIVE HEARING ON H.R. 5066, ``DATA PRESERVATION ACT OF 2014''; AND H.R. 5176, TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO RETIRE COAL PREFERENCE RIGHT LEASE APPLICATIONS FOR WHICH THE SECRETARY HAS MADE AN AFFIRMATIVE COMMERCIAL QUANTITIES DETERMINATION, AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





   H.R. 5066, ``DATA PRESERVATION ACT OF 2014''; AND H.R. 5176, TO 
  AUTHORIZE THE SECRETARY OF THE INTERIOR TO RETIRE COAL PREFERENCE 
     RIGHT LEASE APPLICATIONS FOR WHICH THE SECRETARY HAS MADE AN 
    AFFIRMATIVE COMMERCIAL QUANTITIES DETERMINATION, AND FOR OTHER 
                               PURPOSES

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                     Wednesday, September 17, 2014

                               __________

                           Serial No. 113-90

                               __________

       Printed for the use of the Committee on Natural Resources

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

89-836 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
         Washington, DC 20402-0001
   
   
   
   
   
   
   
   
   
   
   
      

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Raul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Cardenas, CA
Paul A. Gosar, AZ                    Jared Huffman, CA
Raul R. Labrador, ID                 Raul Ruiz, CA
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Steve Daines, MT                     Katherine M. Clark, MA
Kevin Cramer, ND                     Vacancy
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                       DOUG LAMBORN, CO, Chairman
                RUSH HOLT, NJ, Ranking Democratic Member

Louie Gohmert, TX                    Matt Cartwright, PA
Rob Bishop, UT                       Jim Costa, CA
Robert J. Wittman, VA                Niki Tsongas, MA
Paul C. Broun, GA                    Jared Huffman, CA
John Fleming, LA                     Alan S. Lowenthal, CA
Glenn Thompson, PA                   Tony Cardenas, CA
Cynthia M. Lummis, WY                Raul M. Grijalva, AZ
Dan Benishek, MI                     Colleen W. Hanabusa, HI
Jeff Duncan, SC                      Joe Garcia, FL
Paul A. Gosar, AZ                    Katherine M. Clark, MA
Bill Flores, TX                      Vacancy
Markwayne Mullin, OK                 Vacancy
Steve Daines, MT                     Vacancy
Kevin Cramer, ND                     Peter A. DeFazio, OR, ex officio
Vacancy
Doc Hastings, WA, ex officio
                                 ------ 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, September 17, 2014....................     1

Statement of Members:
    Benishek, Hon. Dan, a Representative in Congress from the 
      State of Michigan..........................................     3
    Holt, Hon. Rush, a Representative in Congress from the State 
      of New Jersey..............................................     8
        Prepared statement of....................................     9
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement of....................................     2
    Lujan, Hon. Ben Ray, a Representative in Congress from the 
      State of New Mexico, Prepared statement of.................    10

Statement of Witnesses:
    Arthur, Jonathan D., Ph.D., P.G., President, Association of 
      American State Geologists; State Geologist of Florida......    12
        Prepared statement of....................................    13
    Gooding, Patrick J., Research Geologist/Manager, Kentucky 
      Geological Survey, University of Kentucky, Well Sample and 
      Core Library...............................................    18
        Prepared statement of....................................    19
    Nedd, Hon. Michael, Assistant Director, Energy, Minerals, & 
      Realty Management, Bureau of Land Management, U.S. 
      Department of the Interior.................................    30
        Prepared statement of....................................    32
    Pagano, Theodore A., P.G., P.E., General Manager, Michigan 
      Potash Company, LLC........................................    22
        Prepared statement of....................................    23
    Phelps, Walter, Council Delegate, Navajo Nation..............    28
        Prepared statement of....................................    29

Additional Materials Submitted for the Record:
    Gallagher, Kevin, Associate Director of Core Science Systems, 
      U.S. Geological Survey, U.S. Department of the Interior, 
      Prepared statement on H.R. 5066............................    37
    Michigan Geological Survey, Michigan Geological Repository 
      for Research and Education, Testimony documentation in 
      support of H.R. 5066.......................................    39
    Yellich, John A., Certified Professional Geologist, Director, 
      Michigan Geological Survey, Michigan Geological Repository 
      for Research and Education, Prepared statement on H.R. 5066     4
                                     


 
 LEGISLATIVE HEARING ON H.R. 5066, ``DATA PRESERVATION ACT OF 2014''; 
  AND H.R. 5176, TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO RETIRE 
 COAL PREFERENCE RIGHT LEASE APPLICATIONS FOR WHICH THE SECRETARY HAS 
MADE AN AFFIRMATIVE COMMERCIAL QUANTITIES DETERMINATION, AND FOR OTHER 
                                PURPOSES

                              ----------                              


                     Wednesday, September 17, 2014

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 2:08 p.m., in 
room 1334, Longworth House Office Building, Hon. Doug Lamborn 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Lamborn, Lummis, Benishek, Holt 
and Garcia.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. The committee will come to order.
    The Chairman notes the presence of a quorum, which, under 
Committee Rule 3(e), is two members.
    The Subcommittee on Energy and Mineral Resources is meeting 
today to hear testimony on a legislative hearing on two bills: 
H.R. 5066, introduced by our colleague, Congressman Benishek, 
the Data Preservation Act of 2014; and H.R. 5176, introduced by 
our colleagues, Congressman Ben Ray Lujan and Cynthia Lummis, 
To authorize the Secretary of the Interior to retire coal 
preference right lease applications for which the Secretary has 
made an affirmative commercial quantities determination.
    Under Committee Rule 4(f), opening statements are limited 
to the Chairman and Ranking Member of the subcommittee. 
However, I ask unanimous consent to include any other Members' 
opening statements in the hearing record if submitted to the 
clerk by close of business today.
    Hearing no objection, so ordered.
    I now recognize myself for 5 minutes.
    I would like to welcome everyone here today and those 
listening via our webcast to the Subcommittee on Energy and 
Mineral Resources legislative hearing on H.R. 5066, the Data 
Preservation Act of 2014, introduced by the gentleman from 
Michigan, Dr. Benishek; and H.R. 5176, that authorizes the 
Secretary of the Interior to retire coal preference right lease 
applications for which the Secretary has made an affirmative 
commercial quantities determination, introduced by our former 
committee colleague from New Mexico, Mr. Lujan, and cosponsored 
by the Representative from Wyoming, Mrs. Lummis.
    Back in the 1990s, building on the success of the National 
Cooperative Geologic Mapping Program, several professional 
geologic organizations began to push for a national geological 
and geophysical data preservation program to facilitate the 
acquisition, archiving, and storage of mineral and core data.
    Each year tens of millions of private and public dollars 
are spent in the United States acquiring geologic and 
geophysical data by various industries and state and Federal 
agencies.
    If saved, archived, and stored, it can be retrieved, 
reviewed, reanalyzed, and reinterpreted and can help identify 
and solve environmental problems, locate public safety hazards, 
saving lives, or direct exploration, allowing geologists to 
find possible new discoveries of energy and mineral resources.
    As stated in testimony, ``In 2008, reinspection of a small 
manila pouch full of rock chips from a dry oil test well in 
southern Texas led to the discovery of the Eagle Ford Shale 
play: a $25 billion economic impact in a 20-county area, 
supporting more than 47,000 jobs.'' What a discovery that was.
    H.R. 5176 solves a long-standing Department of the Interior 
obligation to the Navajo Nation to transfer lands selected by 
the Navajo Nation in trust for the Navajo by allowing the 
Interior Secretary to address prior mineral rights on the 
selected parcels.
    The Navajo Nation was granted the right to select certain 
Federal lands to be placed in trust for the Navajo as part of 
the 1974 Navajo-Hopi Settlement Act that settled a long-running 
boundary dispute between the Navajo and Hopi.
    The Navajo relinquished land and relocated its citizens as 
part of the agreement. Forty years is a long time for the 
Navajo Nation to wait for the transfer of these lands.
    [The prepared statement of Mr. Lamborn follows:]
Prepared Statement of the Hon. Doug Lamborn, Chairman, Subcommittee on 
                      Energy and Mineral Resources
    I would like to welcome everyone here in the room today and 
listening via our webcast to the Subcommittee on Energy and Mineral 
Resources legislative hearing on H.R. 5066, the ``Data Preservation Act 
of 2014'' introduced by Dr. Benishek, and H.R. 5176, that authorizes 
the Secretary of the Interior to retire coal preference right lease 
applications for which the Secretary has made an affirmative commercial 
quantities determination, and for other purposes introduced by Mr. 
Lujan and co-sponsored by Mrs. Lummis.
    Back in the 1990s, building on the success of the National 
Cooperative Geologic Mapping Program, several professional geologic 
organizations began to push for a National Geological and Geophysical 
Data Preservation Program to facilitate the acquisition, archiving and 
storage of data.
    As it is each year, millions of dollars are spent in the U.S. 
acquiring geologic and geophysical data by various industries and state 
and Federal agencies.
    If saved, archived and stored it can be reviewed, reanalyzed and 
reinterpreted and can help identify and solve environmental problems, 
locate public safety hazards saving lives, or direct exploration 
geologists to possible new discoveries of energy and mineral resources.
    As stated in Dr. Arthur's testimony, ``In 2008, reinspection of a 
small manila pouch full of rock chips from a dry oil test well in 
southern Texas led to the discovery of the Eagle Ford Shale play: a $25 
billion economic impact in a 20-county area supporting more than 47,000 
jobs.''
    Not an insignificant discovery!
    H.R. 5176, solves a long-standing Department of the Interior 
obligation to the Navajo Nation to transfer lands selected by the 
Navajo Nation in Trust for the Navajo by allowing the Interior 
Secretary to address prior mineral rights on the selected parcels.
    The Navajo Nation was granted the right to select certain Federal 
lands to be placed in trust for the Navajo as part of the 1974 Navajo-
Hopi Settlement Act that settled a long-running boundary dispute 
between the Navajo and Hopi.
    The Navajo relinquished land and relocated its citizens as part of 
the agreement. Forty years is a long time for the Navajo Nation to wait 
for the transfer of these lands.
    Now I would like to yield 2 minutes of my time to Dr. Benishek to 
introduce his legislation and his witness from Michigan Potash.
    I look forward to hearing from our witnesses today.

                                 ______
                                 

    Mr. Lamborn. I am going to now yield 2 minutes of my time 
to Dr. Benishek to introduce his legislation and a witness who 
is here today from Michigan Potash.

    STATEMENT OF THE HON. DAN BENISHEK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Dr. Benishek. Thank you, Mr. Chairman. I really appreciate 
the time to introduce this bill. And thank you for holding the 
hearing.
    This bill, the Data Preservation Act of 2014, is to 
reauthorize the National Geological and Geophysical Data 
Preservation Program Act of 2005 through 2019. As the National 
Research Council reported in 1995, data are the lifeblood of 
science and the key to understanding this and other worlds. As 
such, they are a critical natural resource and must be 
protected, preserved, and made accessible to all people for all 
time.
    In my state, Michigan Geological Repository for Research 
and Education has been collecting and storing geological 
samples and data for over 30 years. The repository is the 
resource center for the Michigan Geological Survey and for 
industry.
    Dr. John Yellich, a Michigan State geologist, reports that 
the repository houses more than 500,000 feet of core, 
additional samples, and geophysical data for more than 25,000 
wells.
    Tens of thousands of well reports, logs and sample analyses 
have been entered into databases. Over the past 6 years, the 
repository has submitted large data sets and received grants 
under the National Geological and Geophysical Data Preservation 
Program.
    The availability of this data has benefited the people of 
Michigan significantly. In partnership with Core Energy, 
researchers at the Survey relying on archived data in the 
repository began to use liquefied carbon dioxide for enhanced 
oil recovery in old, inactive oil fields. One field alone has 
already produced an additional 1.6 million barrels of oil.
    Core Energy, which is based in Traverse City, Michigan, is 
the only company east of the Mississippi using this innovative 
technique. Another company, Michigan Potash, reexamined a 
significant donation of core that led to the discovery of a 
deposit valued at $65 billion.
    I would like to introduce and welcome one of the principals 
of that company, Ted Pagano, who will be testifying here today.
    Finally, I ask unanimous consent to enter testimony and 
other documents for the record from Dr. John Yellich.
    Thank you. I yield back my time.
    [The documents of Dr. John Yellich follow:]
     Prepared Statement of John A. Yellich, Certified Professional 
 Geologist, Director, Michigan Geological Survey, Michigan Geological 
 Repository for Research and Education, a Michigan Geological Survey--
                      Resource Center on H.R. 5066
    Data preservation has been the focus of the Michigan Geological 
Repository for Research and Education (MGRRE) for more than 30 years. 
MGRRE has received financial support and has submitted very large 
datasets to the National Geological and Geophysical Data Preservation 
Program (NGGDPP) during the past 6 years. As the National Research 
Council (NRC) reported in 1995: ``Data are the lifeblood of science and 
the key to understanding this and other worlds. As such, they are a 
critical natural resource and must be protected, preserved, and made 
accessible to all people for all time.'' In Michigan, we have seen how 
these data are also essential in finding solutions to environmental 
problems and to supporting economic growth through sustainable natural 
resource management. Because no one can predict which environmental and 
resource issues will arise, for which the solutions will depend on 
these data, we must make every effort to protect and preserve them.
    In Michigan, geological samples and data are preserved and used in 
education and research by MGRRE, a resource center to the Michigan 
Geological Survey (MGS) at Western Michigan University (WMU). Through 
MGRRE, industry members and our researchers have furthered development 
of domestic energy, green-house gas sequestration, discovery of non-
metallic natural resources, and worked to define water resources. MGRRE 
has data from oil, gas, environmental and geotechnical research in over 
500,000 feet of core (>95 miles), samples and geophysical data from 
over 25,000 wells, tens of thousands of well reports, logs and sample 
analysis which is all in databases and scanned digitally and housed in 
an area having >27,000 sq. ft., over half an acre.
    Funding by the NGGDPP for MGRRE and many other data repositories 
has created a data source for the country and preserved data that 
previously were at risk of damage and/or destruction. We share these 
examples from our work at MGRRE, much of which has been sustained by 
support from the NGGDPP.
    Using cores and data donated to or rescued from disposal by MGRRE, 
largely from the oil and gas industry, our researchers have conducted 
research about hydrocarbon reservoirs and presented those results at 
workshops for more than 20 years (attached picture of Manuals). 
Attendees represented industry, government and higher education. By 
conducting our research in partnership with independent and national 
oil and gas companies, our faculty and students have provided applied 
solutions. And our students have gained hands-on experience in becoming 
geoscience professionals receiving high paid challenging professional 
positions.
    The following examples represent some of MGRRE's major 
environmental, industry and economic milestones over the last 20 years.

  A.  In 1995 WMU and Michigan Technological University (MTU) entered 
            into a partnership to study preserved oil field core 
            samples and data at MGRRE.

          a.   With grant support from the Department of Energy (DOE), 
        MTU-WMU demonstrated effective use of horizontal drilling 
        technology to produce additional oil reserves in Michigan, 
        laying a significant foundation for conventional horizontal 
        drilling used today.

  B.  Since 1997, MGRRE has been the Michigan Center for the Petroleum 
            Technology Transfer (PTTC), initially funded by the DOE, a 
            program where industry and academia share in oil industry 
            geological, geophysical and current operational technology.

          a.   MGRRE has presented one to two workshops each year, 
        utilizing archived core and data.

          b.   This program is now entirely self-funded by MGRRE 
        through workshop fees and industry sponsorship.

          c.   Many of the environmental and industry accomplishments 
        in the last 20 years were the result of data, well-field 
        experience, and research shared at these open industry events.
  C.  In 2005, the DOE established a national environmental program to 
            evaluate the potential of capturing and safely storing 
            Carbon Dioxide (CO2), in subsurface geologic reservoirs. 
            MGRRE, and other states, submitted proposals that would 
            utilize preserved core and geophysical data to explore this 
            concept.

          a.   MGRRE was funded to evaluate Michigan's reservoirs 
        through the Midwest Regional Carbon Sequestration Partnership 
        (MRCSP) and conducted a successful test of CO2 sequestration in 
        a collaborative partnership of DOE, MGRRE and industry partner, 
        Core Energy, LLC.

          b.   This basic program and subsequent successful testing and 
        evaluations have continued for more than 9 years and 
        demonstrated the potential underground storage capacity of tens 
        of billions of tons of CO2.

  D.  The CO2 sequestration program further evolved in Michigan when 
            CO2 injections into old oil fields resulted in the added 
            benefit of more energy production through the recovery of 
            previously stranded oil. Typically these fields would yield 
            about 25 percent of their reserves initially through 
            primary recovery. The remaining oil was ``stranded'' in 
            isolated small pore spaces.

          a.   Injecting the captured CO2 in these oil-bearing 
        formations produced an additional 20 percent to 25 percent of 
        the oil, an economic benefit to Michigan, new wealth.

          b.   This technology has recovered more than 1.6M barrels of 
        oil, which had an estimated revenue of $112,000,000 at $70/BBL 
        price, netting Michigan an estimated tax revenue of $7.3 
        million.

  E.  Legislation in Michigan was passed in April 2014 to entice the 
            oil industry to invest in this capital-intensive process of 
            CO2 capture and injection by providing them a tax benefit 
            for the additional cost.

          a.   Millions of barrels of additional oil will now be 
        recovered through this technology, resulting in tens of 
        millions of dollars of both unrealized income for Michigan 
        residents and millions of dollars of otherwise unrealized tax 
        revenue to the state of Michigan.

  F.  In 2003, MGRRE researchers, MTU and members of the oil and gas 
            industry presented their research and experience at a PTTC 
            workshop focusing on the potential of undiscovered 
            hydrocarbon reserves, particularly those in the Trenton 
            Black River Formations.

          a.   Subsequently, in 2006, USGS began a Michigan basin 
        assessment of unrecovered oil resources and WMU geoscientists 
        compiled data for Michigan using archived core samples and 
        geophysical data.

          b.   This compilation and research was presented at a 
        subsequent MGRRE/PTTC workshop, and this resulted in industry 
        coming to MGRRE to study and sample cores for developing 
        exploration targets.

          c.   New Trenton/ Black River Formation oil-bearing zones 
        were discovered in 2006.

          d.   The Trenton/ Black River continues to be successfully 
        explored and developed, resulting in additional millions of 
        dollars in economic benefits for our citizens and new tax 
        revenues for the state today.

                  i.   An estimated 5 million Barrels of previously 
                undiscovered oil from five newly discovered fields has 
                been produced to date, an additional revenue and tax 
                benefit.

  G.  In 2009 and 2010, MGRRE hosted conferences about potential 
            unconventional oil and gas resources in the Collingwood, 
            Utica and A-1 Carbonate formations.

          a.   Industry professionals visited MGRRE, studied the 
        samples and data and developed a geological and exploration 
        model.

          b.   In 2010, $178 million was paid by the oil industry to 
        lease thousands of acres of state land, the largest single 
        lease sale to date in Michigan, providing a major source of 
        revenue to the Natural Resources Trust Fund of Michigan.

          c.   In 2010 and 2011, industry began exploration on these 
        leases, which has already resulted in several discoveries of 
        commercial quantities of oil and gas and provides the potential 
        for additional millions in economic benefits and tax revenue to 
        Michigan.

  H.  In 2013 the industrial mineral industry recognized that MGRRE had 
            the only collection of geological cores and geophysical 
            data for an extensive deposit of potash: a critical 
            ingredient in fertilizer, essential to U.S. agriculture.

          a.   Industry professionals and MGRRE researchers conducted 
        tests and completed an evaluation of this material and 
        determined that this represented a significant potash resource 
        to Michigan and to the United States.

          b.   The area of study has an estimated in-place value of 
        more than $65 billion, with additional geologic data indicating 
        an even larger resource area.

  I.  Michigan has a coastline contact with four of the five Great 
            Lakes and is perceived as having an abundance of and 
            understanding of water resources, including groundwater. 
            Scientific data collection and mapping of subsurface 
            geologic materials and water resources has been limited for 
            more than 30 years. The Michigan Geological Survey, 
            assigned to WMU in October 2011, is now mandated to 
            function through WMU will utilize the MGRRE samples and 
            data collections with a scientific geosciences emphasis to 
            develop a greater understanding of the groundwater 
            resources of Michigan.

          a.   The MGRRE facility has water well drill samples from 
        over 2000 public water supply wells and combined with more than 
        20,000 oil well sample sets. These samples will be used in 
        conjunction with other geologic and geophysical information to 
        support the program for effective and rational management of 
        our water resources.

  J.  Since 2005, MGRRE and WMU has been a major educational foundation 
            for numerous students who have utilized the resources of 
            MGRRE and faculty to develop the next generation of 
            geosciences professionals. In the last 10 years, there have 
            been over 45 Masters graduates from WMU that have benefited 
            from the MGRRE and faculty experiences, some whom have gone 
            on for Ph.D.'s. These graduates are now experienced 
            contributing professionals in the environmental, industrial 
            and academic world.

    Through NGGDPP funding, MGRRE has continued to rescue cores that 
were literally destined for landfills, recovered cores that had been 
damaged by poor storage conditions, brought cores and samples back to 
Michigan from out-of-state, scanned thousands paper records (mudlogs) 
so they are now available in digital form, inventoried thousands of 
well records, hand-entered porosity and permeability numbers from old 
records into individual spreadsheets, uploaded all this data to the 
National Data Repository, thereby increasing the amount of data 
available and making these data publicly accessible.

    Without NGGDPP funding, this recent work would still be in 
progress. Funding for data preservation is very limited and so 
critically needed. We urge your consideration to continue this funding 
so that more data can be saved and preserved for today and tomorrow.

    Attached are the examples of the workshop manuals, press 
announcements and supporting documentation of data preservation and the 
benefits.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Damaged core in boxes is repackaged and catalogued at MGRRE using 
                             NGGDPP funds.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

MGRRE--Petroleum Technology Transfer Council (PTTC) Manuals 
     prepared and used in conferences conducted since 1997 to 2014.

                                 ______
                                 

    Mr. Lamborn. OK. Thank you.
    And now we are about to hear from the Ranking Member for 
his 5-minute opening statement.
    But, first, I want to thank Representative Rush Holt of New 
Jersey. He will be retiring at the end of this Congress. I have 
enjoyed working with him these last 4 years. Many times we have 
agreed on issues. Many times we have not agreed on issues. But 
that is how our system works. I have always enjoyed his company 
and the input that he provides.
    You will be missed, Representative Holt.

 STATEMENT OF THE HON. RUSH HOLT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Holt. Well, thank you, Mr. Chairman. That is very kind 
of you. I am still on the job and am delighted to be here once 
again in your committee, or your subcommittee.
    Mr. Lamborn. And I just say that because this might be the 
last hearing of our subcommittee this year.
    Mr. Holt. This year.
    Mr. Lamborn. Yes.
    Mr. Holt. I see. OK.
    Mr. Lamborn. We will be coming back after November for a 
lame duck session, but if it is not the case, if we have 
another hearing, I will say my farewell then, also.
    Mr. Holt. As many times as you like, then. Thank you.
    And thanks to the witnesses for being here today.
    And I appreciate the Chair holding this hearing.
    The first bill, H.R. 5066, would reauthorize the National 
Geological and Geophysical Data Preservation Program, and the 
bill is long overdue. This country's collection of geologic and 
geophysical data is invaluable. It represents millions upon 
millions of wells and cores and fossils and maps and other 
things that have been collected over more than a century.
    They are not static museum pieces. These collections are 
used, will be used, should be used, day by day by government 
scientists and the private sector and teachers and students and 
others.
    And not only are most of these data irreplaceable, but much 
of it needs special handling and storage, so digitizing it is 
not the answer. It is hard to imagine what future researchers 
would say if we allowed this to disintegrate or disappear.
    Recently, the Geological Survey used a tool on some old 
mine samples, applying modern analytical techniques to see if 
there are potentially valuable minerals, such as rare earth 
elements, left behind in the mine waste.
    The results in this case are promising, might provide a new 
strategy for decreasing dependence on China and other nations 
for these minerals. But that is only one example of the kinds 
of things that can be done with these data, with these samples.
    The authorization for the program expired 4 years ago and 
while the U.S. Geological Survey has a general authority, it 
really needs a special, specific reauthorization with a clear 
statement of support as well.
    So I think this will help. I hope it helps with the funding 
levels because they are insufficient as it stands. The 
authorized $30 million a year has not come close in the 
appropriations, and it is something on the order of $1 million, 
I guess, in recent years, or it may be as much as $2 million 
now--$2 million spread over the state geological surveys is not 
nearly enough to really safeguard the collections.
    So I am glad to see it is moving forward. Thank you, Mr. 
Chairman, for doing that.
    The second bill, H.R. 5176, will finally retire some 
antiquated coal lease applications that date back decades. 
These preference right lease applications are a vestige of a 
bygone method of coal leasing, and it is time that we do away 
with them.
    Since the mid-1970s, the Department of the Interior has 
gradually been working through these applications. The ones 
that were grandfathered were down to fewer than 30,000 acres in 
New Mexico. This bill would help the Department take care of 
probably all or almost all of those remaining acres and put 
this system to rest, as it deserves.
    The most concerning thing about the coal preference right 
lease applications in New Mexico is that they are in a terrible 
area for coal mining. Right next door to the Chaco Cultural 
National Historic Park, they lie within a Wilderness Study Area 
and the Fossil Forest Research Natural Area. Some are on the 
same land selected by the Navajo Nation as part of the Land 
Settlement Act.
    It is my understanding that all the parties involved: the 
coal company, the Navajo Nation, the Administration, are in 
support of retiring these lease applications in exchange for 
coal-bidding credits to be used elsewhere. And this legislation 
will move that along.
    So I look forward to hearing about these two bills and 
yield back the remaining seconds of my time.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Holt follows:]
Prepared Statement of the Hon. Rush Holt, Ranking Member, Subcommittee 
                    on Energy and Mineral Resources
    Thank you Mr. Chairman for holding this hearing to discuss these 
two bills.

    The first bill, H.R. 5066, which would reauthorize the National 
Geological and Geophysical Data Preservation Program, is long overdue.
    This country's collection of geologic and geophysical data is 
invaluable, representing literally millions upon millions of wells, 
cores, fossils, maps, and more that have been collected at incredible 
expense for roughly a century and a half.
    These aren't simply museum pieces. These collections are used every 
day by the private sector, government scientists, teachers, and more. 
Not only is most of this data irreplaceable, or only replaceable at 
tremendous expense, but much of it needs special handling and storage. 
It can't just be digitized and kept in a database.
    If you have a core sample, and want to come back later to take a 
sample for some new analysis, you need to have that core sample stored 
safely in a proper facility. And it's far cheaper to construct and 
maintain the storage facility than it is to go out and drill new cores.
    We can barely imagine how future researchers will use our existing 
library of geologic data. Recently, the U.S. Geological Survey used a 
new tool on some old mine samples, applying modern analytical 
techniques to see if there are potentially valuable minerals, such as 
rare earth elements, that had been left behind in mine waste.
    The results have been extremely promising, and might provide us 
with a new strategy for decreasing our dependence on China for some of 
these minerals. But that work is only possible because those samples 
were available for testing.
    The authorization for this valuable program expired in 2010, and 
while the U.S. Geological Survey has the general authority it needs to 
keep the program operating, congressional reauthorization would be a 
clear statement of support, and hopefully help boost funding levels. 
Although authorized at $30 million a year, the program barely received 
$1 million for many years, although recently Congress has boosted that 
to $2 million.
    But that's $2 million spread out over all the state geological 
surveys, which is helpful, but not nearly enough to truly safeguard 
these critical collections. I'm glad to see us move forward with a 
reauthorization of this program, and hope that we can keep increasing 
the funding available for it.
    The second bill, H.R. 5176, is a bill to finally retire some 
antiquated coal lease applications that date back decades. These 
preference right lease applications are a vestige of a bygone method of 
coal leasing that Congress did away with in the mid-70s.
    Since that time, the Department of the Interior has been gradually 
working through those applications that were grandfathered in, and we 
are down to less than 30,000 acres in New Mexico. This bill will help 
the Department take care of most, if not all, of these remaining acres, 
and finally put this system to rest once and for all.
    The most concerning thing about the coal preference right lease 
applications in New Mexico is that they're in a terrible area for coal 
mining. They're right next door to an important cultural site, the 
Chaco Culture National Historic Park, lie within a Wilderness Study 
Area and the Fossil Forest Research Natural Area, and are also on some 
of the same lands selected by the Navajo Nation as part of the Navajo-
Hopi Land Settlement Act.
    It is my understanding that all the parties involved--the coal 
company, the Navajo Nation, and the Administration--are in support of 
retiring these lease applications in exchange for coal bidding credits 
to be used elsewhere, and that this legislation is necessary to make 
that happen.
    I look forward to hearing more about these bills, and I thank the 
witnesses for being here today.

    I yield back the balance of my time.

                                 ______
                                 

    Mr. Lamborn. All right.
    Mr. Holt. Oh. Mr. Chairman----
    Mr. Lamborn. Yes.
    Mr. Holt. May I ask unanimous consent to include in the 
record a statement of Representative Ben Ray Lujan on the 
subject of H.R. 5176?
    Mr. Lamborn. If there is no objection, so ordered.
    Mr. Holt. Thank you.
    [The prepared statement of Representative Ben Ray Lujan on 
H.R. 5176 follows:]
   Prepared Statement of the Hon. Ben Ray Lujan, a Representative in 
                 Congress from the State of New Mexico
    Mr. Chairman, I appreciate the subcommittee's willingness to hold 
this important legislative hearing on H.R. 5176, a bill I have 
sponsored with Representative Cynthia Lummis to authorize the Secretary 
of the Interior to retire coal preference right lease applications for 
which the Secretary has made an affirmative commercial quantities 
determination, and for other purposes. I want to welcome the witnesses 
Walter Phelps, Chairman of the Navajo-Hopi Land Commission, and Mike 
Nedd, Assistant Director from the BLM Minerals & Realty Management, who 
are appearing before the subcommittee today on this bill.
    While it may not be evident from the bill's title, the 
authorization provided to the Secretary by this legislation will not 
only resolve certain preference right lease applications, but will also 
help resolve a tribal trust obligation to the Navajo Nation that has 
been unresolved for four decades. In 1974, when the Congress enacted 
the Navajo-Hopi Settlement Act, a process was established for the final 
settlement of the reservation boundaries between the Navajo and Hopi 
tribes. This led to the resettlement of Navajo tribal members and the 
loss of acreage from the Navajo Reservation in order to make the Hopi 
Reservation whole. In return, the Navajo were permitted to select a 
comparable amount of acreage on Federal lands managed by the BLM, to be 
taken into trust for the Navajo Reservation. In the 1974 Act, Congress 
committed to providing the Navajo these lands, unencumbered by mineral 
rights.
    In the early 1980s, the Navajo Nation selected its parcels of 
Federal land. The Secretary of the Interior has since taken most of 
those parcels into trust for the Navajo Nation. Unfortunately, a number 
of the parcels selected by the Navajo were encumbered by prior mineral 
rights held by private entities. These parcels are unable to be taken 
into trust for the Navajo until the private mineral rights are removed, 
and the status of these parcels remains unresolved after decades.
    Several of these parcels are also within 2 miles of the Chaco 
Canyon National Historical Park. It is the BLM's goal, shared by me and 
many of my constituents, to protect areas closely surrounding the Park 
that contain important historical and archeological assets.
    There have been numerous attempts to resolve this situation 
administratively, and I applaud the efforts of all the parties involved 
for working in good faith to find a solution. A key element to 
resolving this issue is the exchange of existing preference right lease 
applications for competitive coal leasing bidding rights that can be 
used to meet future obligations under the Federal coal leasing program. 
Unfortunately, the Interior Department's Solicitor has determined that 
Interior lacks the authority to pay the resultant state share of 
royalties or bonus bids once the new bidding rights are exercised. This 
would significantly disadvantage states in the application of any 
bidding credits.
    Our bill provides the Secretary of the Interior with important 
authorities that will ensure that all affected parties--private 
entities, the Navajo Nation, and the states--will be treated equitably 
going forward. Further, the Interior Department and private entities 
holding the mineral rights have already stipulated that there are 267 
million tons of commercially recoverable coal on these parcels. Absent 
Congress providing statutory authority to the Secretary to resolve 
issues like this, a far more expensive takings claim may occur. 
Accordingly, our actions here in Congress will save taxpayers 
significant dollars.
    Again, I appreciate the subcommittee's attention to this important 
issue, and I am committed to working with the subcommittee and 
committee leadership to move this bill forward in an expeditious 
manner.

                                 ______
                                 

    Mr. Lamborn. We will now hear from our witnesses.
    I want to welcome Jonathan D. Arthur, Ph.D. and P.G., 
President of the Association of American State Geologists and 
Director and State Geologist of Florida; Patrick J. Gooding of 
the Kentucky Geological Survey and the University of Kentucky, 
Well Sample and Core Library; Theodore A. Pagano, P.G. and 
P.E., General Manager of the Michigan Potash Company, LLC; and 
Walter Phelps, Council Delegate of the Navajo Nation; and, 
finally, Michael Nedd, Assistant Director of Energy, Minerals 
and Realty Management of the Bureau of Land Management with the 
U.S. Department of the Interior, who is accompanied by Kevin 
Gallagher, Associate Director of Core Science Systems of the 
U.S. Geological Survey, also with the U.S. Department of the 
Interior.
    Like all of our witnesses, your written testimony will 
appear in full in the hearing record, so I ask that you keep 
your oral statements to 5 minutes.
    Our microphones are not automatic. So you need to turn them 
on when you are ready to begin.
    I also want to explain how our timing lights work. When you 
begin to speak, our clerk will start the timer and a green 
light will appear. After 4 minutes, a yellow light will appear 
and, at that time, you should begin to conclude your statement. 
At 5 minutes, the red light will come on and I ask that you 
conclude at that time.
    I will also be giving the gavel here very soon to Dr. 
Benishek to finish this hearing. This is a very busy day with 
committees. I have two others going on at the same time.
    So, Dr. Benishek, if you can come here, we will do that.
    But, Mr. Arthur, you may begin. Thank you for being here.

   STATEMENT OF JONATHAN D. ARTHUR, PH.D., P.G., PRESIDENT, 
 ASSOCIATION OF AMERICAN STATE GEOLOGISTS; STATE GEOLOGIST OF 
                            FLORIDA

    Mr. Arthur. Thank you, Chairman Lamborn, Ranking Member 
Holt, members of the subcommittee and bill sponsor, Congressman 
Benishek. I appreciate this opportunity to provide testimony in 
support of H.R. 5066, Reauthorization of the National 
Geological and Geophysical Data Preservation Program Act. I 
serve as the State Geologist of Florida and as president of the 
Association of American State Geologists, AASG.
    Today I am testifying on behalf of AASG. Our association 
commends your efforts to strengthen our Nation's capacity to 
address the challenges related to energy and critical mineral 
resources.
    AASG strongly supports restoration, preservation, and 
accessibility of geological and geophysical data. We 
acknowledge and support the role of U.S. Geological Survey in 
administering this program. We are grateful that the Act 
supports important state and Federal partnerships through 100 
percent matching to achieve mutually beneficial goals.
    We acknowledge that local, state and tribal agencies and 
our Federal partners, such as the Departments of the Interior, 
Energy, Homeland Security and EPA, as well as the private 
sector, rely on this data for purposes of water, mineral and 
energy discoveries and assessments, natural hazard mitigation, 
and protection of human health and the environment. Bottom 
line: This data is important.
    Examples of the data at risk include rock and sediment 
samples, fossils, paper logs, aerial photos and maps, which are 
often in poor states of preservation and access and in danger 
of permanent loss.
    In 2002, the National Academy of Sciences Report titled 
``Geoscience Data Collections--National Resources in Peril'' 
made the case for the premise of this Act. Many of this 
Nation's geological data repositories, most of which are 
maintained by state geological surveys, are now at or near 
their storage capacity. Expansion of these facilities requires 
significant capital costs.
    Per the Act, annual authorization is $30 million. However, 
appropriation has been on the order of 3 percent. Over the last 
5 years, average annual funding of roughly $27,000 per state 
has been awarded to an average of 25 states.
    While capital improvements are not possible with this 
modest appropriation level, small data rescue projects have 
been accomplished by State Geological Surveys, enhancing 
accessibility, discoverability, and usability of the data.
    For example, funds from the Act supported digital archiving 
of historic mine maps in California, which are used to mitigate 
public safety hazards posed by abandoned mines.
    Florida digitally converted more than 7,000 paper 
geophysical logs, thereby protecting the data and providing 
digital access to information about the state's deepest wells 
for use in groundwater and energy assessments.
    The economic and societal importance of geological and 
geophysical data cannot be overstated. Kansas used 50-year-old 
drill cores in its repository to help determine the cause of 
fatal gas explosions and recommend solutions.
    Michigan received a mining company donation of 4,000 core 
boxes and, fortunately, had the sufficient staff and space to 
archive the materials for future use. Reinspection of the 
samples led to discovery of potash deposit valued at $65 
billion.
    New Jersey, Maryland, and Delaware used data from their 
respective collections to cooperate on a study of the Potomac 
aquifer, which serves these states as a principal source of 
drinking water.
    You heard from Chairman Lamborn about the Eagle Ford Shale 
play in Texas. This successful use of geologic and geophysical 
data is seen in other states. For example, similar stories 
exist in Oklahoma and Pennsylvania, where frequent use of 
geophysical logs and samples has led to rapid and efficient 
development of significant oil and gas plays.
    Data underpins everything we do as geoscientists. We must 
protect it, and we must make it accessible. The AASG urges this 
subcommittee to consider extending the reauthorization to 2025.
    Thank you again for this opportunity.
    Dr. Benishek [presiding]. Thank you very much.
    [The prepared statement of Mr. Arthur follows:]
   Prepared Statement of Jonathan D. Arthur, Ph.D., P.G., President, 
Association of American State Geologists; State Geologist of Florida on 
                               H.R. 5066
    Thank you for the opportunity to submit written testimony for the 
record on H.R. 5066, Reauthorization of the National Geological and 
Geophysical Data Preservation Program Act of 2005 through 2019 
(NGGDPP). This testimony is presented on behalf of the Association of 
American State Geologists (AASG). Our organization, founded in 1908, 
represents the State Geologists of the 50 United States and Puerto 
Rico. AASG seeks to advance the science and practical application of 
geology and related earth sciences across our lands. AASG strives to 
optimize the role that State Geological Survey agencies play in 
delivering benefits to the people of the United States in relation to 
developing economic prosperity, understanding and mitigating natural 
hazards, protecting property and lives, and preserving our natural 
environmental heritage.
    AASG recognizes the work of Chairman Lamborn, Ranking Member Holt, 
sponsor Benishek and the members of this committee. We commend your 
efforts to strengthen our Nation's capacity to address the challenges 
associated with energy, as well as critical and strategic mineral 
resources. I share with you today the vital role of geological and 
geophysical data in this regard, the vulnerability of these resources, 
and I will emphasize the role that State Geological Surveys can play in 
addressing associated concerns.
                           the aasg position
    AASG strongly supports preservation and access of geological and 
geophysical data, which is facilitated through this Act. We support 
long-term authorization and full appropriation of the Act. We 
acknowledge and support the role of the U.S. Geological Survey (USGS) 
in administering this program, which includes the development and 
compilation of state and Federal data inventories, an implementation 
plan, data standards, strategic planning, and collaboration regarding 
preservation techniques. We acknowledge the significance of the 
National Data Catalog at ScienceBase.gov. We acknowledge that local and 
state agencies and our Federal partners, such as the Department of 
Interior, Department of Energy, Department of Homeland Security and the 
Environmental Protection Agency, rely on this data for purposes of 
water, energy and mineral resource assessments and sustainability, 
hazard mitigation, and protection of human health and the environment. 
AASG understands that despite the continuous evolution of geological, 
geophysical, engineering concepts, and analytical techniques, there is 
a constant need to revisit, re-examine, and re-analyze rock samples 
over time. These ``second looks'' at archived and heritage data can 
yield energy and mineral discoveries worth billions of dollars and 
generate tens of thousands of jobs. The NGGDPP supports important 
Federal-State partnerships that achieve mutually beneficial goals 
related to the rescue and accessibility of invaluable geoscience data.
                    a critical issue for the nation
    Geoscience-related issues are critical and of immediate concern to 
the Nation's security and economy. Examples include the following:

    <bullet> Location, abundance, sustainability and quality of water 
            supplies

    <bullet> Domestic energy sources, such as oil, gas, coal, 
            geothermal, and renewables; reduction of carbon emissions

    <bullet> Domestic sources of metals and critical minerals

    <bullet> Identification, mapping, and prediction of geologic 
            hazards such as earthquakes, volcanic eruptions, sinkholes 
            and landslides

    <bullet> New technological breakthroughs require re-examination of 
            samples and data; data historically deemed insignificant 
            may become paramount to new discoveries

    <bullet> Training the next generation of geoscientists, especially 
            geologic mappers

    All of these issues rely on the analysis of geological and 
geophysical samples, collections, and data that already exist. 
Regrettably, these vital materials are often in poor states of 
preservation and access, and in danger of permanent loss. Many of this 
Nation's geological data repositories, most of which are maintained by 
State Geological Surveys, are now at or near their storage capacity. 
Some have exceeded their capacity and are relying on temporary, non-
climate-controlled portable storage. Expansion of these facilities 
requires significant capital costs. While industry and government have 
made substantial investments to acquire geoscience data and collections 
for over 150 years, volumes of expensive and arduously obtained 
subsurface information are currently at risk of disposal or ruin. Once 
these data are lost, they probably will never be replaced.
    The value of our Nation's geological and geophysical data (e.g., 
rock and ice cores, fossils, geophysical tapes and paper logs, rock, 
mineral and fossil samples, aerial photos, field notes) have long been 
recognized. The fact that significant portions of these materials are 
irreplaceable due to destruction of outcrops (e.g., construction, 
quarrying, flooding, landslides), urbanization, restricted access, and 
prohibitive replacement expenses only increases their importance. If 
preserved, these materials and data will be invaluable for the next 
generation of scientific research and education. The ability to 
preserve and maintain geoscience data and collections has not kept pace 
with the growing need for information and technological advancements, 
many of which require real-world calibration: samples from the Earth.
    Not only is rescue of this data critical, a full understanding and 
access of the types and sources of data is equally important to future 
geoscientists. To this end, developing inventories, and recording 
metadata--or structured information about data--allows for future 
discovery and use through a georeferenced platform such as an Internet-
based map. Meticulous effort is involved in the research of metadata; 
it is much like detective or forensic work and is time-consuming.
    In 2002, the National Academy of Sciences reported on ``Geoscience 
Data and Collections--National Resources in Peril,'' making the case 
for preserving these irreplaceable data and physical samples. The 
report notes that ``housing of and access to geoscience data and 
collections have become critical issues for industry, Federal and state 
agencies, museums, and universities. Many resources are in imminent 
danger of being lost through mismanagement, neglect, or disposal. A 
striking 46 percent of the state geological surveys polled by the 
[National Research Council] committee reported that there is no space 
available or they have refused to accept new material.''
                              the response
    Congress established the National Geological and Geophysical Data 
Preservation Program (NGGDPP) through the National Energy Policy Act of 
2005 [P.L. 109-58, Sec. 351] to address these issues. Specifically, the 
NGGDPP was established to:

    <bullet> Create a national network of cooperating geoscience 
            materials centers and data archives, representing a 
            partnership between U.S. Department of the Interior Bureaus 
            and the State Geological Surveys;

    <bullet> Archive geologic, geophysical, and engineering-geologic 
            data, maps, well logs, and samples in accordance with 
            National and international formats and standards;

    <bullet> Permit ready access to the holdings of all collections 
            through a common, distributed Internet-based National 
            Digital Catalog of archived materials;

    <bullet> Provide Federal assistance, matched by state and private 
            funds, to support physical and digital infrastructure 
            efforts, outreach, public awareness, and workshops;

    <bullet> Ensure that this Nation's next generation of geoscientists 
            has the necessary reference material with which to train;

    <bullet> Designate the USGS as the program administrator to 
            coordinate geologic material centers and data archives with 
            other Department of Interior Bureaus, the State Geological 
            Surveys and the AASG; and

    <bullet> Encourage private industry and universities to partner 
            with State Geological Surveys and the USGS to leverage 
            resources.

                  budget history--a state perspective
    Since implementation of the NGGDPP, the annual authorization has 
been $30 million, however, total appropriated funds since 2007 equals 
$8 million. This comprises three percent of the total $240 million 
authorization during that period. Cooperative funding of state projects 
began in 2007, totaling $4.58 million to date in awards to the states. 
Over the last 5 years, on average, 25 states per year have received 
funding averaging $27,033 per state. This annually comprises an average 
of 63 percent of the appropriated funds over this 5-year period.
           data preservation accomplishments and applications
    With the modest appropriation levels, intended capital improvements 
have not been possible; however, the USGS-administered NGGDPP has 
successfully implemented the National Data Catalog and funded small 
data rescue activities and improvements in data collections and 
management across the country. The following describes selected 
accomplishments of State Geological Surveys. In addition, examples of 
successful applications of previously archived geological and 
geophysical data are shared to illustrate the importance of these 
geoscience data resources, which can generate billions of dollars for 
the Nation's economy, create jobs, and save lives:

    <bullet> Alabama has digitally cataloged approximately 170,000 
            fossil specimens within its paleontology collection, 
            providing ready access of fossil information to energy 
            companies who are constructing or moving pipelines. The 
            companies incorporate this information into the 
            Paleontological Resources section of the required 
            Environmental Impact Statement within their applications to 
            the Federal Energy Regulatory Commission. Archived 
            vibracores can be used to evaluate damage to the Alabama 
            coast due to the Deepwater Horizon oil spill and may be the 
            basis for recovering significant funds for coastal 
            restoration.

    <bullet> Alaska completed a major curation project supported partly 
            by NGGDPP involving a valuable core sample collection at 
            risk of severe material and data loss: 818 boxes of moldy 
            coal-bed methane core from five oil and gas wells were 
            cleaned, re-boxed, restored and made available to 
            geoscientists studying potential energy resources. Other 
            archived cores once examined and analyzed for gold, silver, 
            and tin, are now being analyzed for their promising REE 
            potential.

    <bullet> Arizona digitized and georeferenced more than 4,900 maps, 
            5,500 reports, 5,100 images to date; over 30,000 additional 
            files and maps have also been scanned--information used 
            extensively by state and Federal agencies in environmental 
            and abandoned mine/mine safety programs, and by mineral 
            resource exploration companies.

    <bullet> California notes the importance of its Historic Mine Maps 
            Collection, which is used to remediate public safety 
            hazards posed by abandoned mines throughout the state. 
            Almost every year there are reports of California residents 
            entering or falling into abandoned mines and becoming 
            trapped sometimes with deadly results. Maps in the 
            collection provide information on mine locations that would 
            otherwise go undetected.

    <bullet> Florida converted more than 7,000 geophysical logs to 
            digital format, providing information about state's deepest 
            wells, making the data more accessible and useful toward 
            exploration of oil, natural gas and deep-aquifer drinking 
            water. Evaluation of core samples and geophysical logs 
            continue to lead to a refined understanding of the Floridan 
            aquifer system. Moreover, examination of core samples led 
            to discovery of natural sources of arsenic, which fostered 
            development of techniques that mitigate the release of this 
            element underground sources of drinking water.

    <bullet> Kansas used drill cores in its repository that were 
            collected in the 1960s to help determine the cause of a gas 
            explosion and recommend solutions. In 2001, natural gas 
            bursts in Hutchinson, Kansas, resulted in downtown 
            explosions and fires, as well as fountains of natural gas 
            and brines 3 miles east of the fires and an explosion under 
            a mobile home that killed two people. Using the drill cores 
            and new seismic data, scientists determined that gas 
            leakage from a salt cavern used to store natural gas had 
            resulted in two anomalous zones of potential high gas 
            pressure. Vent wells were drilled to release the pressure, 
            which prevent further explosions. Originally acquired in 
            the 1960s while the Atomic Energy Commission was trying to 
            determine potential nuclear storage facilities, the core 
            was used in 2001 to prevent further explosions and deaths 
            from underground natural gas accumulations.

    <bullet> Michigan received a mining company donation of 4,000 core 
            boxes and fortunately had sufficient staff process the 
            samples and sufficient space to archive the materials for 
            future access. Reinspection of the samples led to discover 
            of a potash deposit valued at $65 billion.

    <bullet> Missouri received funding from NGGDPP and applied it to 
            convert 400 hard-bound, paper field notebooks to a digital 
            format via scanning for preservation and archival purposes, 
            increasing public awareness of and accessibility to the 
            information. The collection comprises more than 1,500 
            geology field notebooks that date back to 1855. The 
            collection is one-of-a-kind and would be impossible to 
            replace should be lost or destroyed. The notebooks contain 
            historic geologic data on outcrop locations, rock-unit 
            layers, mining, karst, hydrology, structure and other 
            topics. They also contain historic data on physiography, 
            vegetation, socio-economic and cultural information and a 
            myriad of other subjects. The notebooks have proven to be 
            essential for site location and characterization work on 
            mine-related Brownfields work. The information has not only 
            reduced costs and time by providing mine location data, but 
            has also been the sole source of information for more than 
            1,700 historic mines, many of which have significant soil 
            or groundwater lead contamination and are now proximal to 
            residential development.

    <bullet> Montana applied NGGDPP funds to collect and preserve mines 
            and mineral data throughout the state, specifically, 
            preserving drill hole logs, mineral evaluations, and many 
            other data related to the New World Mining District. 
            Preservation of mineralogic and geochemical data was also 
            accomplished to evaluate hundreds of abandoned-inactive 
            mine sites for reprocessing waste rock.

    <bullet> New Jersey, Maryland and Delaware used geologic and 
            geophysical logs from their respective collections to 
            cooperate on a transboundary study to understand the 
            Potomac Aquifer, which is a principal supplier of drinking 
            water in each state. The project was supported by the USGS 
            National Cooperative Geological Mapping Program (STATEMAP). 
            The geologic information, made available in part from the 
            NGGDPP program, assisted the team with identifying the 
            dimensions of the aquifer, and for locating optimal 
            drilling locations for additional test wells. Drilling test 
            wells is costly, and the use of existing geologic and 
            geophysical information allowed the team of researchers to 
            make optimal use of their research funds.

    <bullet> New York applied NGGDPP resources to support the scanning 
            of over 1,700 maps, therefore preserving the documents and 
            making them more accessible. State agencies, such as the 
            Departments of Transportation and Environmental Protection, 
            have used the scans of our bedrock maps for projects such 
            as landslide mitigation, resource planning, and habitat 
            protection. They have also been used by the engineering 
            community in planning and construction of a new water 
            supply tunnel for New York City. Engineers on the project 
            stated that the existence of archival bedrock data in the 
            NYSGS open file saved the City ``millions of dollars in 
            drilling costs.''

    <bullet> Oklahoma has a core facility and data center, the Oklahoma 
            Petroleum Information Center, that is the size of four 
            football fields and holds over 100 miles of core. It also 
            holds thousands of well logs, thousands of boxes of 
            drilling cuttings, very popular old aerial photographs that 
            we have scanned with NGGDPP funding, and equally popular 
            old data such as mud logs which we have also scanned with 
            NGGDPP funding. These data are being used daily in oil and 
            gas exploration and production efforts across Oklahoma, and 
            we are regularly told how invaluable these data are. Some 
            of the recent plays that are in the news are the 
            Mississippi Lime, Granite Wash, Woodford shale, and SCOOP 
            (South Central Oklahoma Oil Province). The utility of the 
            data we preserve can be easily tracked by the requests for 
            core viewing, examination of cuttings, and paper records as 
            these and other plays develop.

    <bullet> Pennsylvania gas archived core that was drilled and 
            archived over the last 40+ years and has been utilized over 
            the last 5 years for studies of the Marcellus shale. This 
            horizon has recently fueled a significant increase in 
            available gas resources to support the U.S. economy. Were 
            it not for the cores preserved and maintained by the PA 
            Survey, and the work over the last 30 years to map, sample 
            and evaluate the Marcellus--long before the advent of 
            current drilling technology and the now recognized 
            importance of organic shales--the rapid and efficient 
            development of this resource would have been significantly 
            delayed.

    <bullet> Texas maintains three core research centers. In 2008, 
            reinspection of a small manila pouch full of rock chips 
            from a dry oil test well in southern Texas led to discovery 
            of the Eagle Ford Shale play: a $25 billion economic impact 
            in a 20-county area supporting more than 47,000 jobs. The 
            pouch resides in a box among half a million boxes in a 
            Texas Bureau of Economic Geology core research facility. 
            The sample had likely not been inspected since the 1950s.

    <bullet> Utah has record of over 24,000 air photos that were 
            downloaded last fiscal year for use by geotechnical and 
            environmental engineering consultants in support of 
            investigations for new development to identify and locate 
            potential geologic hazards, and in environmental 
            assessments, and by local governments and others to 
            document land-use changes. The Survey's Aerial Imagery 
            Collection is being used on almost all internal geologic 
            hazard projects and emergency responses, and is critical 
            for mapping landslide occurrences (such as the over 500 
            square mile Wasatch Plateau landslide inventory mapping 
            project, Seeley Fire emergency response, etc.), and other 
            hazards.

                               in closing
    The AASG endorses the NGGDPP as it is designed to readily address a 
vast and enduring concern for the Nation. Not only are geological and 
geophysical data at risk, but scientific clues revealing undiscovered 
water, mineral and energy resources may be lost, and more importantly, 
data that can save lives may be lost. This cooperative Federal-State 
program affords the Nation the opportunity to more fully understand the 
reserves of water resources and mineral and energy reserves in our 
lands. In addition, the data is also used for prediction and 
preparation of geological hazards, as well as to avoid unnecessary 
costs of embarking in geologic exploration in areas already represented 
in historic collections.
    Given past appropriation levels and the immense importance of this 
successful program, the AASG strongly recommends that the authorization 
be extended to a 10-year duration, ``. . . 2015 through 2025.'' We also 
encourage full appropriation levels to meet national demands for 
capital improvement projects to store, protect and make these valuable 
geoscience resources more readily available.
    Thank you, again, for this opportunity. I hope you find this 
information helpful as you consider this important matter.
For more information about geoscience data repositories and success 
        stories:
American Geological Institute, 1997, National Geoscience Data 
Repository System Phase II: Final Report, Alexandria, Virginia, 127 p.

American Geological Institute, 2003, National Geoscience Data 
Repository System Phase II: Implementation and Operation of the 
Repository Final Report, Alexandria, Virginia, 42 p.

American Geological Institute, 2006, Directory of Geoscience Data 
Repositories, Alexandria, Virginia, http://www.agiWeb.org/ngdrs/
datadirectory.html.

Collette, Mark, December 30, 2012, ``The Wildcatter: Corpus Christi's 
Gregg Robertson, key member of Eagle Ford discovery, named 2012 
Newsmaker of the Year,'' Corpus Christi Caller Times, Retrieved from 
http://www.caller.com/business/eagle-ford-shale/the-wildcatter-corpus-
christis-gregg-robertson.

National Research Council, 2002, Geoscience Data and Collections--
National Resources in Peril, National Academies Press, Washington, DC, 
107 p.

Office of Management and Budget, 2002, Coordination of Geographic 
Information and Related Spatial Data Activities. Circular No. A-16 
Revised.

Roland, Cheryl, September 10, 2013, ``Western Michigan University 
research facility assists in rediscovery of rare mineral deposit,'' 
Western Michigan University News, Retrieved from http://wmich.edu/news/
2013/09/9197.
                           supporting images

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 

    Dr. Benishek. Mr. Gooding.

 STATEMENT OF PATRICK J. GOODING, RESEARCH GEOLOGIST/MANAGER, 
KENTUCKY GEOLOGICAL SURVEY, UNIVERSITY OF KENTUCKY, WELL SAMPLE 
                        AND CORE LIBRARY

    Mr. Gooding. I am also honored to be here representing the 
Kentucky Geological Survey at the University of Kentucky.
    Geoscience data is the extensive collection of data 
obtained during research and exploration and includes the 
following: Fossils----
    Dr. Benishek. Sir, is your microphone on?
    Mr. Gooding [continuing]. And includes fossils, 
geochemistry data, minerals, well cuttings, coals, to name a 
few.
    Are important geoscience data being destroyed? Yes. Each 
year millions of feet of coal and well cuttings along with 
water data, geologic logs, maps, seismic data, mineral, and 
fossil collections are being discarded all over the country.
    Why is examination of geoscience data important? It leads 
to cleaner, better, and improved environment, discovery of 
energy sources and minerals, and a better understanding of the 
geological history.
    Field work, data acquisition, and research is costly. It is 
time-consuming and it is dangerous. Preserving geoscience data 
at a repository is the solution. State Geological Surveys 
throughout the country maintain facilities similar to this one 
with supporting funds from Congress. Geoscience data are 
examined daily for research and exploration.
    Where do our donations come from? From coal companies, 
mining, quarry, research, state and Federal agencies, to name a 
few. Samples and cores add great value to industry and 
research, in education, and in training in all levels.
    Geoscience data provides opportunities for research, 
exploration and development. It is used by graduate students 
with their thesis and dissertations, on class projects, and lab 
exercises.
    What can be learned from studying this material? A detailed 
and accurate understanding of the subsurface is possible 
through the examination and study of geoscience data.
    And how does geoscience data impact the economy? It 
provides solutions to scientific, economic, environment issues 
and potentially natural disasters. It also facilitates new 
discoveries, redevelopment of old areas, and allows intelligent 
planning decisions and a better management of our natural 
resources.
    So what is the benefit and purpose of keeping geoscience 
data? There is a constant need to go back and reexamine samples 
and cores as new geological and engineering concepts evolve, as 
new analytical instruments and techniques are developed, as new 
progress in technology and computer modeling advances, and as 
new methods of examination and interpretations evolve.
    An established record results in greater success and 
predictability, less development, and exploration time, readily 
available data, and geoscience data preservation facilities 
throughout the country are filled to capacity.
    Tremendous geoscience data preservation progress has been 
accomplished nationwide with support from the National 
Geological and Geophysical Data Preservation Program Act of 
2005, and reauthorization is warranted and justified.
    I thank you.
    [The prepared statement of Mr. Gooding follows:]
 Prepared Statement of Patrick J. Gooding, Research Geologist/Manager, 
 Kentucky Geological Survey, Well Sample and Core Library on H.R. 5066
What is geoscience data?
    It is the extensive collection of data obtained during research and 
exploration. It includes fossils, geochemistry data, models, geologic 
reports, field samples, well cuttings, cores, mineral collections, 
hydrocarbon samples, tar sands, coals, thin sections, engineering 
reports, maps and geologic cross sections.
How are geoscience materials used and by whom?
    Although many tools are available for exploration, the examination 
of geoscience data available at state and Federal repositories are used 
by scientists from the U.S. Government, geological surveys, educators 
from academia, exploration, development and industry geologists, 
consultants, operators, students and the general public. The data 
preserved at these facilities are the best source of materials for 
research, training, and education and provides solutions to scientific, 
economic, and environmental issues.
Are important geoscience data being discarded and destroyed?
    Yes. Each year, millions of feet of cores and well cuttings along 
with the water data, geologic records, maps, seismic data, and mineral 
and fossil collections, are discarded and destroyed all over the United 
States. The loss of this resource, which costs millions of dollars to 
obtain, is a tragedy for our Nation.
Why are geoscience data important?
    Detailed examination of geoscience data is important in research, 
development, discoveries, exploration of new hydrocarbon reservoirs and 
mineral deposits critical to U.S. energy security and independence. 
Examination of these data provides opportunities leading to new 
discoveries in energy, environmental issues, and a better understanding 
of the earth's history and development. An established record results 
in greater scientific success and predictability. It reduces 
development and exploration time, and contributes to lower exploration 
costs, increased efficiency and greater safety. Some data are 
irreplaceable and would be cost prohibitive to reacquire in the future.
What are the advantages of a repository?
    Repositories preserve geoscience data, make the data accessible, 
and promote the utilization of their collections in education, 
scientific research, exploration, and development of resources both on 
and beneath the earth's surface.

    Historical data, literature, previously analyzed sample data, 
geophysical logs, core data, geochemical analysis and samples are 
generally available at repositories for examination. Many records have 
been scanned and are accessible in digital format on repositories' Web 
sites. Utilization of data becomes more efficient when geoscience data 
pertaining to that state is preserved at a repository located in that 
state.
How are repositories important for research and development?
    Geoscience data are of great value in industry, research, education 
and training. Cores and well samples are the most important source of 
information for hydrocarbon and mineral exploration and for 
stratigraphic and structural investigations. Cores and well samples 
also are the best source of detailed geologic information about the 
nature, occurrence, and extent of rocks in the subsurface. Geologists 
engaged in the exploration for and development of mineral resources 
must have detailed knowledge about the strata in which the deposits 
occur, as well as information about associated deposits. Cores and well 
samples also provide essential information for a better understanding 
of our groundwater resources and related environmental problems. 
Knowledge about the rock beneath the earth's surface can only be gained 
through detailed examination of well cuttings and cores.
How are geoscience data used in education?
    Geoscience data provides opportunities for research, exploration, 
development and scientific reports. Graduate and undergraduate students 
from universities throughout the country use the materials available at 
the repositories to generate theses, dissertations, class projects, 
term papers, lab exercises, reports, research papers, publications and 
professional presentations. Examination of cores and well samples 
allows students to expand their knowledge of rocks and geologic 
processes while conducting research on a wide range of geologic 
material, thereby providing a greater understanding of the subsurface 
and the evolution of the earth.
In what disciplines are the data used?
    Geoscience data are used for a wide range of interests including: 
exploration for hydrocarbons, and coal, and in environmental, 
engineering, mining, construction, and land-use studies. In addition, 
they are used in stratigraphy, sedimentology, paleontology, 
geochemistry, structure, earthquake investigations, subsurface mapping, 
seismic studies, and geologic reconstruction.
How are geoscience data acquired?
    Geoscience data are generally donated to Federal and state 
geological surveys by coal, oil and gas, mining, highway construction, 
and environmental investigations; construction projects; quarry 
operators; university research; and Federal and state projects.
What can examination of geoscience data reveal?
    A detailed and accurate understanding of the rock beneath the 
earth's surface can only be gained through exploratory drilling and 
examination of geoscience data generated during exploration. Detailed 
examination of well samples and cores is important in understanding 
petroleum reservoirs, and mineral deposits which lead to more 
discoveries of hydrocarbons and minerals critical to the Nation's 
energy security and independence.

    Conclusions reached using geoscience data provide information to 
government and industry that allows intelligent planning decisions 
concerning assessment and management of valuable natural and strategic 
resources. Without these data, more time and effort will be consumed in 
duplicated exploration and development and there would be a greater 
chance of failure because of increased cost overruns and decreased 
production. Intelligent planning decisions are made based on reliable 
data.
How does geoscience preservation affect the economy?
    Geoscience preservation leads to new discoveries, redevelopment of 
mature oil and gas fields and mineral deposits, and infrastructure, 
resulting in sustained economic growth and more investment in the 
community and increased tax revenues. It also lowers exploration costs, 
and increases efficiency and safety. Availability of geoscience data 
allows more detailed preparation and development, better management of 
natural resources, and provides solutions to scientific, economic, and 
environmental problems and potential natural disasters.

    Without good and efficient management of our current and future 
resources and firm knowledge of where future supplies of these 
resources can be found, economic development cannot be sustained. This 
fact also begs the question: If our supply of strategic minerals from 
foreign sources was interrupted for any reason, where would we find a 
local source of that mineral? Geoscience data and the professional 
papers generated from research using the subsurface data would be a 
good place to begin the search.
How much does it cost to initially acquire geoscience data?
    The process of field work, data acquisition and research, time 
consuming and dangerous to attain. It costs millions of dollars to 
acquire.
How would preservation of geoscience data affect future generations?
    Preserving geoscience data would provide readily available data to 
future generations, giving them opportunities for investigation, 
development and evaluation which in turn could lead to new innovations 
and discoveries. Using these preserved data may result in greater 
success and predictability. Some data are irreplaceable and lack of 
availability of the necessary tools, equipment and labor to reacquire 
geoscience data may be cost prohibitive in the future. Preservation of 
geoscience data will facilitate the training and education of the next 
generation of geoscientists, and help with appraising water resources, 
dealing with conservation, and mitigating hazards such as earthquakes 
and landslides.
What are the advantages of maintaining a database and inventory of 
        geoscience data?
    Samples and cores are of great value to industry and research. 
There is a constant need to re-examine geoscience data available at 
both Federal and state repositories. These data are an invaluable 
resource as new geologic and engineering concepts evolve, as new 
analytical instruments and techniques are developed, as new methods of 
examination and interpretation emerge, and as advances are made in 
technology and computer modeling. Our greatest gift is preserving our 
data and passing our knowledge to the next generations.
How is having geoscience data readily available important to 
        geoscientist?
    Readily available geoscience data will lower the costs and 
increases the efficiency of reworking old reservoirs, reevaluating 
environmental concerns and predicting natural hazards and using new 
technology and new extraction enhancement techniques. In addition, they 
can be used in the quest for a pristine and greener environment, by 
facilitating clean and efficient energy. It is imperative that the next 
generation be trained and educated, because knowledge is the key to 
success. Using this wealth of data can contribute to continued economic 
prosperity and energy independence, resulting in greater national 
security.
Should the National Geological and Geophysical Data Preservation 
        Program Act of 2005 be extended to 2014?
    For the most part, both Federal and state repositories are filled 
to capacity, and have inadequate working space. In addition, many 
repositories are overwhelmed by the extent of available collections. 
Most repositories that have received funding from the National 
Geological and Geophysical Data Preservation Program Act of 2005 are 
making tremendous progress rescuing collections, and preserving, 
identifying, inventorying, scanning and photographing their collections 
while making the data available for inspection at the repository or on 
their Web sites, and for this to continue, reauthorization of this Act 
is justified and necessary.

                                 ______
                                 

    Dr. Benishek. Thank you, Mr. Gooding.
    Mr. Pagano, you may begin.

 STATEMENT OF THEODORE A. PAGANO, P.G., P.E., GENERAL MANAGER, 
                  MICHIGAN POTASH COMPANY, LLC

    Mr. Pagano. Again, thank you. My name is Ted Pagano. I am 
the founder and general manager of Michigan Potash Company. 
Thank you, Dr. Benishek, for the recommendation to come before 
Congress to speak on behalf of House Bill 5066.
    Dr. Benishek thought about Michigan Potash Company when 
House Bill 5066 came up because our story is a unique and 
compelling one that really epitomizes the purpose of H.R. 5066.
    So it is a unique one in which we utilized, or Michigan 
Potash Company utilized, rescued and old geological data to 
identify a critical strategic resource that actually 
strengthens the U.S. balance of trade, helps our U.S. farmers 
and potentially impacts food security.
    Food security in geology doesn't tend to usually come to a 
frame of reference or mind, but potash, potash is actually the 
world's tightest-controlled commodity and it is responsible for 
our food growth.
    It is produced by only 13 producers in the entire world and 
it comes from only 13 countries. Amongst all other commodities, 
it is the tightest controlled.
    Go ahead and turn it to the next slide.
    This is a graphical example of where U.S. potash production 
has come since its peak plateau in 1962. So the blue line shows 
U.S. potash production, and the red line shows U.S. 
consumption. The green line on the back side shows where U.S. 
prices have come of recent times.
    So since 1962 and at peak rates, potash production has 
declined by 65 percent. Demand has increased by 195 percent, in 
large part due to emerging competitive nations, and U.S. potash 
import reliance has increased by 85 percent.
    This is a picture also generated by the U.S. Geological 
Survey and old historical data, of potash consumption by 
county. The United States only has three places from where 
potash comes.
    Next to each of those red dots you can actually see when 
commercial production was established. Most of our potash 
production comes from New Mexico, from what is called the 
designated potash reserve.
    In 1939, it was identified as a strategic resource 
important enough to protect. So it is protected yet today by 
the Department of the Interior.
    But it has become significantly depleted over the past 80 
years. In fact, one of the potash producers in the designated 
potash area will cease potash production there at the end of 
this year. That leaves us with one potash producer 
domestically.
    Now, there is a little red dot there in Michigan in the 
middle of the Corn Belt that reached commercial production in 
1989.
    We know very little about this. We knew very little about 
this until about 3 years ago. This is the Hersey potash 
facility in Michigan, one of the United States' only sources of 
potash.
    In 2008, this gentleman, Bill Harrison, the founder and 
director of the Michigan Geological Repository for Research and 
Education, drove up to Hersey, Michigan, to take back core in 
his pickup truck, and he came across boxes and boxes, over 
12,000 foot of core, which would cost today over $200 million 
to replicate. It is one of the finest evaporative collections 
that we have in the United States.
    So he took it under his wing, brought it back to preserve. 
And I think Dr. Benishek mentioned he is a beneficiary of the 
prior 2005 Data Preservation Act. Without that, he couldn't 
operate.
    So a few years later we inquired as to the solid core 
cuttings that he had. And, as it turns out, the youngest 
commercial deposit of potash reaching production in 1989 is 
also the world's highest-quality ore, globally speaking, and it 
resides in the U.S. Corn Belt.
    A beneficiary of the Data Preservation Act of 2005 enabled 
the rediscovery of this critical mineral reserve enough in 
place in Michigan to double the U.S. output for over a century 
and a half.
    So the control of a product in the hands of very few 
creates price control around a resource needed by the United 
States to sustain our farmers and the work that they do to feed 
our families. The MPC story is one that pays H.R. 5066 forward 
in a real and impactful way.
    Thank you.
    [The prepared statement of Mr. Pagano follows:]
Prepared Statement of Theodore A. Pagano, P.G., P.E., General Manager, 
               Michigan Potash Company, LLC on H.R. 5066
    Michigan Potash Company, LLC (``MPC'') has been invited to give 
testimony on H.R. 5066, the ``Data Preservation Act of 2014'', as a 
result of its immediate experience with preserved geological data and 
the Michigan Geological Repository for Research and Education 
(``MGRRE'').
    MGRRE was a beneficiary of the National Geological and Geophysical 
Data Preservation Program Act of 2005, and requires these funds to 
operate.
    MGRRE was founded by William B. Harrison III, in 1982 to preserve 
and research geological samples and data, for the specific purpose of 
identifying value, both commercial and educational in Michigan's 
natural resources. The Repository now archives the largest collection 
of subsurface geological samples and data in the state. The collection 
includes Michigan geological publications, geologic and subsurface 
maps, driller's reports, well scout data, oil and gas well production 
data, well test data, various types of wireline logs, drill cuttings 
samples, drill core samples and other miscellaneous well and geological 
information.
    IN 2011, MPC became a direct beneficiary of MGRRE's preservation of 
geological data that resulted in a critical and substantive geological 
re-discovery that has the ability to strengthen U.S. agriculture, 
farmers, food security, and balance of trade.
About Potash:
    Potassium is one of the three primary nutrients essential to 
support carbohydrate production and plant life. Potassium is supplied 
in natural fertilizers to improve productivity, efficiency, and yields 
of agribusiness. The major source of potassium is potash (potassium 
chloride), extracted form sylvinite, a naturally occurring mineral 
containing both potassium chloride (potash) and sodium chloride (table 
salt). Since 1965, world consumption of potash grew from 12 million 
tons, to an approximate 58 million tons today. In 50 years, potash 
consumption has almost quadrupled. In the last two decades, potash 
consumption has doubled.
    The American farmer, the most efficient in the world, consumes 
about 6 million tons of potash annually and globally, pays more than 
any other farmer. Over 83 percent of U.S. potash consumption is 
imported. Domestic potash supply comes principally from the Designated 
Potash Area in New Mexico; established in 1939 as a strategic resource, 
it has been and remains protected by the Secretary of the Interior. 
Over the past 80 years, the Designated Potash Area has become 
critically depleted.
    In December of 2014, one of the two potash producers based in the 
United States will cease potash production from the Designated Potash 
Area, citing depletion and low ore grade.
    Potash is the world's tightest controlled commodity. It is utilized 
throughout the globe, but commercial production occurs in only 13 
countries and from 13 companies.
About the Core Recovery:
    A small manufacturing plant in the western rural setting of Hersey, 
Michigan, for extracting and refining potash was opened in the late 
1980s by Pittsburg Plate and Glass. Harrison, the founder of MGRRE, 
said the company extracted subterranean rock cores all over Michigan 
back in the 1980s and he was aware of their test drilling at the time, 
but the company never revealed its findings to the public.
    IMC Global purchased Pittsburg Plate and Glass' potash producing 
segment, resulting in the largest potash producer in the world, and at 
the time most critical to the Hersey's capital growth period, they did 
not invest the capital Hersey needed to expand, thus it remained 
``under the radar.''
    The Hersey plant contacted MGRRE in 2008 stating it no longer 
wanted to store the Michigan geological core samples it had amassed, 
and offered to donate them to Western Michigan University.
    Harrison accepted on behalf of Western Michigan University, and 
drove up to Hersey in his pickup truck--only to discover there were 
4,000 80-pound core samples--approximating 12,000 feet of drilling. The 
drilling and replacement cost of this core, would be over $200 million 
today. A moving van had to be hired to bring the boxed cores to the 
Michigan Geological Repository for Research and Education, where they 
were cataloged and stored.
About the Re-Discovery:
    A few years later, following inquiries from MPC, MGRRE and MPC 
worked collectively to have all of the cores tested by an independent 
lab in Saskatchewan, provided the province's foremost expertise in 
potash analysis. The drilling cores from Michigan ``turned out to be 
the highest grade of potash anywhere in the world. It was just 
remarkable,'' said Harrison. It is the purest and highest-grade potash 
being produced globally--600 percent higher than that being produced in 
New Mexico's vast Permian Basin and twice the grade of deposits found 
in Canada and Russia. ``What blew our minds was that there were layers 
in there that were essentially 100 percent of this potassium 
chloride,'' said Harrison.
    The Hersey Potash discovery in 1980, makes it the world's youngest 
commercial discovery, and a very tightly kept secret.
    As it turns out, and later discovered by MPC, Pittsburg Plate and 
Glass had intended to double U.S. potash output from Hersey, Michigan, 
effectively migrating the U.S.' domestic reliance from New Mexico to 
Michigan. They coined it the `U.S. Potash Project.'
    There is enough proven, commercial, potash sitting under Hersey, 
Michigan to double U.S. output for over 150 years, and that's without 
drilling any new test wells. MPC has worked quietly over the past 3 
years to confirm the reserve could be technically, economically and 
logistically put into production as it was originally intended by 
Pittsburg Plate and Glass.
    ``One of the things that makes this so valuable is that it is an 
incredibly rich deposit that is in easy reach of the enormous demand 
from Midwest corn and soybean farmers who operate within a 500-mile 
radius of this deposit,'' Harrison says. ``This is an opportunity for 
new wealth to come from the use of natural resources never tapped 
before.''
    Some financial endeavors transfer wealth from one hand to another 
by the trading of goods and services. The discovery of a new natural 
resource, however, and its production, creates brand new Gross Domestic 
Product, or GDP. At current prices, a simple in the ground value 
exceeds $65 billion.
    Linda Harrison, William's spouse and an administrator with MGRRE, 
said the Michigan potash was obviously known about, as it was ``booked 
as proven and probable'' in SEC documents filed by IMC Global when the 
company stock traded on the New York stock exchange. However, the 
promising discovery in Michigan was apparently forgotten within IMC 
Global during its financial trials.
    MPC and MGRRE were the first ones to cut open these vacuum-sealed 
cores from the time they were originally packed.
    MGRRE are not hired consultants nor investors, and have no 
financial involvement with Michigan Potash.

References:

Daly, Pete (2013, September 13). Potash a Gold Mine for Michigan. The 
Grand Rapids Business Journal.

Zipp, Yvonne (2013, September 10). Rediscovery of rare mineral deposit 
by WMU geologists and private company could boost Michigan economy. The 
Kalamazoo Gazette, Mlive.

Related Materials:


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Dr. Benishek. Thank you, Mr. Pagano.
    Mr. Phelps.

  STATEMENT OF WALTER PHELPS, COUNCIL DELEGATE, NAVAJO NATION

    Mr. Phelps. Thank you.
    Good afternoon, Congressman Benishek, Chairman Lamborn, 
Ranking Member Holt, members of the Subcommittee on Energy and 
Mineral Resources. My name is Walter Phelps, and I am a Nation 
Council Delegate and Chairman of the Navajo-Hopi Land 
Commission of the Navajo Nation Council.
    It is an honor to come before you to discuss the Navajo 
Nation's support for House Resolution 5176. This legislation 
would help to resolve a 4-decade-old Federal obligation to the 
Navajo Nation that was authorized in the Navajo-Hopi Land 
Settlement Act of 1974.
    The Act settled the disputed boundaries between the Navajo 
Nation and the Hopi tribe and resulted in the forced relocation 
of over 10,000 Navajo citizens from what is now Hopi land. In 
return for the lost acreage, the Navajo Nation was permitted to 
select unencumbered Federal lands for the conveyance and to 
trust for the Navajo Nation.
    In the early 1980s, Navajo Nation selected parcels of land 
known as Paragon Ranch in northern New Mexico. The Secretary of 
the Interior has conveyed some of these parcels. Unfortunately, 
a number of the parcels selected within the Paragon Ranch are 
encumbered by the preference right lease applications held by 
private entities. These parcels cannot be taken into trust for 
the Navajo until the PRLAs are resolved.
    A further complication evolved after the selection of these 
parcels when the Federal Government initiated the Fossil Forest 
and the Wilderness Study Area, effectively blocking the 
development of these selected lands.
    The BLM initiative is designed to protect these areas and 
surrounding lands with historical and archeological assets. 
There is therefore no legal process for deselection and 
reselection of lands that would solve these problems.
    Given the limited availability of BLM lands within the 
mandated 18-mile boundary area, there is little opportunity to 
easily fix this issue.
    This legislation should establish that the naturally 
existing boundary of the reservation includes the Navajo trust 
lands that incorporate the satellite communities. The Navajo 
Nation supports this legislation with the ability to deselect 
and reselect land of equal value at the Nation's discretion.
    Representative Ben Ray Lujan and Representative Cynthia 
Lummis introduced House Resolution 5176 to provide the 
statutory authorization to resolve these issues by providing a 
mechanism to retire these remaining PRLAs. We appreciate their 
efforts and hope that this committee will act on the 
legislation before the end of this Congress.
    Passage of this legislation would resolve one aspect of the 
harsh effects experienced by the Navajo people due to the 1974 
Navajo-Hopi Settlement Act. Further, it fulfills a promise made 
by the Federal Government to the Navajo people 40 years ago.
    Thank you.
    Dr. Benishek. Thank you, Mr. Phelps.
    [The prepared statement of Mr. Phelps follows:]
Prepared Statement of Walter Phelps, Navajo Nation Council Delegate on 
                               H.R. 5176
    Good afternoon Chairman Lamborn, Ranking Member Holt and members of 
the Subcommittee on Energy and Mineral Resources. I am Walter Phelps, 
Navajo Nation Council Delegate, and Chairman of the Navajo-Hopi Land 
Commission. I am here to discuss the Navajo Nation's support for H.R. 
5176. This important legislation brings to a close a four decade-old 
Federal statutory obligation to the Navajo Nation that was authorized 
in the Navajo Hopi Settlement Act of 1974.
    I would like to thank Congressman Ben Ray Lujan and Congresswoman 
Cynthia Lummis and their staff for introducing this legislation. I 
would also like to take this opportunity to thank some of the members 
of the subcommittee who have been strong supporters of the Navajo 
Nation: Congressmen Bishop, Gosar (our former Representative), Mullin, 
Grijalva, and Hanabusa. The Navajo Nation recognizes and appreciates 
your tireless efforts working on behalf of the Navajo Nation and all 
Native Nations.
    The Navajo-Hopi Settlement Act settled the disputed boundaries 
between the Navajo Nation and Hopi Tribe. The settlement led to the 
relocation of Navajo citizens from what is now Hopi land, and the loss 
of acreage from the Navajo Reservation. In return for the lost acreage, 
the Navajo Nation was permitted to select comparable acreage on Federal 
lands to be taken into trust for the Navajo Nation. In the 1974 Act, 
Congress committed to provide the Navajo unencumbered lands that the 
Nation would select from Federal lands managed by the BLM.
    In the early 1980s, the Navajo Nation selected the parcels of 
Federal land. The secretary of the Interior has since taken most of 
those parcels into trust for the Navajo Nation. Unfortunately, a number 
of the parcels selected by the Navajo Nation were encumbered by prior 
mineral rights (PRLAs) held by private entities. These parcels are 
unable to be taken into trust for the Navajo until the private mineral 
rights are removed. The status of these parcels of land with valid 
private mineral rights, and stipulated commercial quantities of coal, 
remains unresolved.
    Further complicating a resolution to this matter is that subsequent 
to the Settlement Act, the Federal Government also provided two major 
areas with protections against development: the Fossil Forest and the 
Ah-Shi-Sle-Pah Wilderness Study Area on which these PRLAs existed and 
on which the Navajo had selected parcels to be taken into trust. It is 
the BLM's goal to protect areas closely surrounding the Park that are 
replete with historical and archeological assets. Unfortunately, the 
current law does not provide a mechanism for deselecting any of the 
parcels and reselecting others. Further, given the limited availability 
of BLM lands within the mandated 18-mile boundary limitation there is 
little opportunity to easily fix this issue. Allowing for deselection 
and reselection, and establishing that the boundary of the reservation 
lies within the naturally existing boundaries of Navajo trust land 
would alleviate these issues and allow the Navajo Nation to address the 
BLM's concerns.
    An important mechanism to un-encumber lands is the exchange of 
existing PRLAs for competitive coal leasing bidding rights, essentially 
``trading in'' the old PRLAs for credits that can be used to meet 
future obligations under the Federal coal leasing program. However, as 
potential administrative PRLA exchange discussions moved forward, the 
Interior Department's solicitor discovered that Interior did not have 
the authority to pay the resultant state share of credits. This would 
significantly disadvantage states in the application of any bidding 
credits.
    Representatives Ben Ray Lujan and Cynthia Lummis introduced H.R. 
5176 to provide that statutory authorization to resolve of all of these 
issues, most importantly the Federal obligation to the Navajo Nation, 
by providing a mechanism to retire these remaining PRLAs. The 
legislation:

  1.  Authorizes the Secretary to negotiate a value for these minerals 
            currently held by private interests;

  2.  Authorizes the exchange of the mineral rights for a credit in the 
            amount of the negotiated value to the private interest, to 
            be applied in other Federal leasing activities, and;

  3.  Authorizes the Secretary to make ``state share'' payments to any 
            relevant state in which the bidding credits are applied.

    It is important to note that while the selection of the lands in 
question result from the terms of the Navajo-Hopi Land Settlement Act, 
this is solely a Navajo/Arch/New Mexico issue. The lands selected by 
the Hopi Tribe for conveyance were solely within the state of Arizona, 
and the rights therein have already been transferred; it is only the 
Navajo Nation that has yet to finalize its land selection and transfer. 
Completion of this exchange does not require that the Hopi agree to the 
terms contained within the legislation.
    Passage of this legislation would bring to a close one element of 
the long painful experiences that the Navajo people have experienced 
due to the 1974 Navajo Hopi Land Settlement Act. Further it fulfills a 
promise made by the Federal Government to the Navajo Nation 40 years 
ago.
    Thank you.

                                 ______
                                 

    Dr. Benishek. And, finally, Mr. Nedd.

STATEMENT OF THE HON. MICHAEL NEDD, ASSISTANT DIRECTOR, ENERGY, 
 MINERALS & REALTY MANAGEMENT, BUREAU OF LAND MANAGEMENT, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Nedd. Mr. Chairman, Ranking Member, and members of the 
subcommittee, thank you for the opportunity to present the 
views of the Department of the Interior on these two bills. I 
will briefly summarize our views and ask that the entire 
statement be included in the record.
    I am accompanied today by Mr. Kevin Gallagher, Associate 
Director for the U.S. Geological Survey of Core Science 
Systems. Mr. Gallagher is here to answer questions relating to 
H.R. 5066.
    H.R. 5066, the Data Preservation Act of 2014, reauthorizes 
the National Geological and Geophysical Data Preservation 
Program through 2019. Through this partnership with the State 
Geological Survey, the Department plays a leading role in the 
Federal collection, management and preservation of geological 
and geophysical data.
    Since 2007, the program, which is administered by the U.S. 
Geological Survey, has provided 44 states with almost $4.6 
million, which, when matched by the states, amount to over $9 
million invested in the rescue and preservation of geoscience 
collection.
    The Department supports H.R. 5066, the Data Preservation 
Act of 2014, in order to provide continued funding for the 
states and Federal partnership, ensuring the rescue and 
continued preservation of geological and geophysical samples 
and data.
    H.R. 5176 would authorize the Secretary of the Interior to 
retire certain coal leases in exchange for coal bidding rights 
elsewhere on Federal lands.
    The Department appreciates the work of the cosponsors and 
supports the goal of seeking resolution to long-standing, 
unresolved mineral development issues. We would like to 
continue discussions with the sponsors and the subcommittee on 
how best to achieve the intent of this bill while minimizing 
the cost to taxpayers and ensuring continued protection of 
important environmental and cultural resources.
    Prior to 1976, the Secretary was authorized by the Mineral 
Leasing Act to issue permits to prospect for coal on public 
land in areas where no known coal deposit existed. And if 
commercial quantities of coal were demonstrated, permittees 
could file a preference right lease application, or a PRLA, to 
develop the coal.
    In 1976, this authority was repealed and the BLM began 
working to process existing valid PRLAs. Currently, only 11 
PRLAs remain, and they are in northern New Mexico just outside 
Chaco Cultural Natural Historical Park. This area has 
significant environmental, cultural, and other important 
resources, including Wilderness Study Area and areas of 
critical environmental concern.
    The BLM has worked with the holder of the PRLAs on a 
settlement agreement which would exchange 11 PRLAs for an equal 
value in Federal bidding credits elsewhere.
    H.R. 5176 provides the authority to ensure that all aspects 
of the exchange could be completed. The Department notes that 
the land currently encumbered by the PRLAs have been selected 
by the Navajo Nation under the Navajo-Hopi Land Settlement Act. 
The Navajo Nation has sought to deselect these lands and select 
others, but is unable to complete the action without further 
legislation.
    In order to ensure that the environmental, cultural, and 
other important resources in this area are fully protected, the 
Department encourages Congress to include the authority for the 
Navajo Nation to deselect lands in this legislation. Should 
that occur, the BLM would welcome the opportunity to manage 
these lands to protect the significant and important values.
    We look forward to continuing to work with the sponsors to 
achieve the goals of H.R. 5176. Thank you for the opportunity 
to present our testimony. I am happy to answer any questions 
you may have.
    Dr. Benishek. Thank you, Mr. Nedd.
    [The prepared statement of Mr. Nedd follows:]
  Prepared Statement of Michael Nedd, Assistant Director for Energy, 
Minerals & Realty Management, Bureau of Land Management, Department of 
                       the Interior on H.R. 5176
    Thank you for the opportunity to present the views of the 
Department of the Interior (Department) on H.R. 5176, which would 
authorize the Secretary of the Interior (Secretary) to retire a certain 
type of Federal coal lease rights--``preference right lease 
applications'' or PRLAs--in exchange for coal bidding rights elsewhere 
on Federal lands. The Department appreciates the work of the co-
sponsors and supports the goal of seeking resolution to long-standing 
unresolved mineral development issues. We would like to continue 
discussions with the sponsors and the subcommittee on how best to 
achieve the intent of this bill while minimizing the cost to taxpayers 
and ensuring continued protection of environmental and cultural 
resources.
                               background
    Prior to 1976, the Secretary was authorized by the Mineral Leasing 
Act (MLA) to issue permits to prospect for coal on public lands in 
areas where no known coal deposits existed. If coal was discovered, the 
prospector could file a preference right lease application (PRLA). If 
commercial quantities of coal were demonstrated, the prospector was 
entitled to a ``preference right lease,''--a noncompetitive, exclusive 
right to mine coal on these public lands for an initial 20-year term. 
The Federal Coal Leasing Amendments Act of 1976 repealed the 
Secretary's authority to issue prospecting permits and terminated the 
preference right leasing program, subject to valid existing rights. 
However, prospecting permittees who have filed a PRLA prior to 1976 
continue to be recognized as having valid existing rights that require 
adjudication by the BLM. In 1987, the BLM promulgated regulations 
exclusively for processing these pre-1976 PRLAs.
    To date, all PRLAs have been processed, except for 11 held by the 
Ark Land Company (Ark Land), covering approximately 21,000 acres in 
northern New Mexico. These PRLAs are within 3 miles of Chaco Culture 
National Historic Park and in the Ah-Shi-Sle-Pah Wilderness Study Area 
(WSA), Fossil Forest Research Natural Area, and North Road and Ah-Shi-
Sle-Pah Road Areas of Critical Environmental Concern (ACECs). These 
areas have cultural archaeological, paleontological, primitive 
recreational, and environmental significance, and are not an ideal site 
for commercial development of the coal. In the interest of protecting 
the important cultural and environmental resources in the area, in 
2012, after extensive investigation, litigation and negotiation, the 
BLM New Mexico State Office and Ark Land signed a settlement agreement 
that would seek to exchange the 11 PRLAs for an equal value in Federal 
bidding credits for Federal coal within the borders of the state of 
Wyoming. While this exchange can currently be completed through 
existing regulations (43 CFR Subpart 3435), further authority is 
necessary to meet a condition of the settlement agreement that requires 
taxpayers pay the share of sums that would have otherwise been paid 
from bonus bid receipts to the state of Wyoming or any other party 
under the bid-sharing formula.
    In addition, as part of the Navajo-Hopi Land Settlement Act (P.L. 
93-531), the Navajo Nation selected approximately 12,000 acres of lands 
which overlap the PRLAs and are currently included in protected areas 
such as the Ah-Shi-Sle-Pah WSA and the North Road and the Ah-Shi-Sle-
Pah Road ACECs. These selections have not yet been completed due to the 
encumbrance of the PRLAs. The Navajo Nation has sought to ``deselect'' 
these lands and select others, but is unable to complete the action 
without further legislation. In the absence of new legislative 
authority, the sensitive lands currently under discussion would 
continue to be available for development.
                               h.r. 5176
    H.R. 5176 would authorize the Secretary of the Interior to retire 
coal PRLAs by issuing bidding rights in exchange for relinquishment of 
the PRLAs. The bill would define a ``bidding right'' as an appropriate 
legal instrument that may be used in lieu of a monetary payment for a 
bonus bid in a coal sale under the MLA, or as monetary credit against a 
rental or royalty payment due under a Federal coal lease. Thus, a 
bidding right could be used in lieu of cash for part or all of a 
winning bonus bid in a subsequent coal lease sale, or for rental or 
royalty owed under a Federal coal lease. H.R. 5176 further provides for 
payment of 50 percent of the amount of the bidding right used to the 
state in which the newly issued coal lease--or in which the lease under 
which a royalty payment is made--is located. The payments to the state 
would be made from revenues received under the MLA that otherwise would 
be deposited to miscellaneous receipts. Under H.R. 5176, bidding rights 
would be fully transferable to any other person and the bidding rights 
holder would have to notify the Secretary of the transfer. The bidding 
rights would terminate after 5 years, unless the rights could not be 
exercised within the 5-year period under certain conditions outlined in 
the bill.
    The Department supports the goal of H.R. 5176 to provide 
legislative authority for a solution to the long-standing coal PRLA 
issue in northern New Mexico. However, the Administration is concerned 
about the likely costs of this legislation as drafted. Based on the 
terms of the legislation, and in the context of the Ark Land settlement 
agreement, it appears these costs would likely fall between $53 million 
and $240 million, which provides challenges for identifying suitable 
offsets. If enacted, the BLM, consistent with 43 CFR Subpart 3435, 
using standard appraisal practices and in coordination with the 
Department's Office of Valuation Services, will determine on the fair 
market value of the resources.
    In addition, the Department notes that if the bill is enacted as 
currently written and the PRLAs are relinquished, the Navajo Nation 
would hold the 12,000 selected acres in fee, and would have the 
authority to develop the resources--including coal--as the tribe sees 
fit. The Navajo Nation has indicated that it is interested in 
deselecting these lands and selecting other lands to fulfill its 
entitlement. If legislation is to be enacted to resolve the status of 
PRLAs in this area, the Department would like to ensure that the 
resolution also provides for permanent protection of these resources 
from future impacts.
    In order to ensure that the cultural and environmental resources in 
this area are fully protected, the Department encourages the Congress 
to work with the Navajo Nation to effectuate the deselection of these 
lands as part of this legislation. Should this deselection occur, the 
land would revert to the BLM. If that occurs, the BLM would welcome the 
opportunity to manage these valuable lands to protect their resource 
values in a manner consistent with the Ah-Shi-Sle-Pah WSA, and the 
North Road and the Ah-Shi-Sle-Pah Road ACECs.
                               conclusion
    Thank you for this opportunity to present testimony on H.R. 5176. 
The Department thanks the sponsors for their dedication to this issue. 
We look forward to continuing to work with the sponsors to achieve 
these goals.

                                 ______
                                 

    Dr. Benishek. Thank you all for your statements.
    We will begin the questioning now. Members are limited to 5 
minutes for their questions, but we may have an additional 
round as needed.
    I recognize myself for 5 minutes for my questions. And 
members of the committee may have additional questions for the 
record, and I will ask you to respond to those in writing.
    Mr. Pagano, thanks for taking time out of your schedule to 
be here today to tell us a little bit more about your company. 
I am interested in how this Michigan Potash Company came into 
being. So I have a couple questions.
    How did you find these cores? I mean, can you kind of lead 
me to the path of how did you form Michigan Potash and then 
find the core? Tell me about how this all started.
    Mr. Pagano. When we began this project, the core wasn't 
fully cataloged yet at MGRRE, and we had gone down the road to 
very quietly secure an asset that once was secured by Pittsburg 
Plate and Glass, a potash producer at the time, in 1980.
    Following resecuring that asset, then it came to our 
attention that the core was fully cataloged now at MGRRE and 
quickly shortcutted our path toward realizing the impact of the 
potash deposits in Michigan. So we are a relatively young 
company.
    Dr. Benishek. Where did you find the cores? Where were they 
at when you came into the picture?
    Mr. Pagano. Well, the cores were underneath Bill's house. 
So they were already at MGRRE. So the geological work that we 
had done began prior to us becoming aware of the availability 
of the core.
    Dr. Benishek. So it must have been kind of exciting to 
realize that you had discovered $65 billion worth of potash 
there.
    How did you feel when that happened? Did you check your 
numbers?
    Mr. Pagano. You know, potash is an industrial mineral. When 
it does occur, it occurs en masse. And so initially, I had been 
speaking to the prior geologist that was familiar with this 
core when it was extracted. And he had told me that, when you 
see it, you will be astounded, and I didn't really believe him.
    When we stepped into MGRRE, I quite frankly didn't believe 
it when we did pull it out. I was astounded.
    And Bill Harrison, he picked up a core and he says, ``Ted, 
I can look at this and it looks like it is about 60 percent 
potash.''
    And I said, ``Bill, it is not. That doesn't exist.''
    And he said, ``It looks to me like it is 60 percent KCL, 
maybe 70 percent.''
    I said, ``No. I doubt it.''
    We sent it off to the Saskatchewan Research Council, 
verified that it was, in fact, some of the highest grade, 
cleanest potash that exists in the world.
    Dr. Benishek. I have a question for some of the other folks 
there.
    How could this program be improved? I mean, it seems to me 
this is pretty valuable data. It is really expensive to 
collect, and I think it provides valuable information that 
would benefit our society for centuries.
    So maybe each of you could just give me what you think is 
the most important thing that we should try to improve with the 
program.
    Mr. Arthur.
    Mr. Arthur. Thank you, Congressman. Can you hear me all 
right?
    Dr. Benishek. Yes.
    Mr. Arthur. OK. Well, the program, which has been going on 
since 2007 with regard to funding, all of the infrastructure is 
set up.
    The U.S. Geological Survey has done a great job 
administering the program, building the national geological 
data catalog into which all of this information will flow, 
facilitated inventory of all of the geoscience data collections 
in the states that participated. It would be good to see all 
states in the country participate.
    But, furthermore, all of the groundwork is laid. The two 
gaps are the fact that there are a lot of facilities that are 
hitting a wall, literally, with regard to their collections and 
they need to expand.
    Florida, for example, is addressing this and we are buying 
maybe another 10 or 15 years of core storage, but that doesn't 
address the paper records and the digitizing and georeferencing 
of all of this other information.
    So the bottom line is to just simply continue the work and 
increase the funding. And that, to me, would be the primary 
take-home message is the appropriation.
    Dr. Benishek. Mr. Gooding, do you have an opinion other 
than the funding?
    Mr. Gooding. Yes, I have been in charge of the facility in 
Kentucky for the last 37 years, and during that time, I have 
traveled to 35 facilities, both private, Federal and state, 
from Canada all the way to Texas, looking at their facilities. 
And if there is one thing each repository in the country has in 
common, it is that they are out of space. They are completely 
out of space.
    In Kentucky, we are stacking pallets three, four, six high 
in rows. So when someone needs to see the collection in a 
particular row, maybe 20 pallets have to be pulled out just to 
access one well.
    So with the funding that the states have been getting from 
the Geological Survey and from this program over the last few 
years, it went to do rescue collections or repair or to 
identify collections. But the states now need more funding to 
do expansion, you know, whether it is Alaska or Florida----
    Dr. Benishek. Right.
    Mr. Gooding [continuing]. All over the country. I was in 
Austin at the Survey there, and they are pretty much out of 
room, too.
    Dr. Benishek. All right. Thank you.
    And I am over my time.
    But I would like to recognize my colleague from Wyoming, 
Mrs. Lummis.
    Mrs. Lummis. And I would like to compliment the Chairman on 
your absolutely beautiful voice, especially when you hook it up 
to a microphone. You should be in radio, not in Congress.
    You know, Mr. Nedd, I have to tell you, I have been here 
long enough to know that, when the Administration comes in with 
a statement that says we would like to continue to work with 
the sponsors, that that is code, and that is code for, ``We 
don't like this bill, but we don't want to say it in public.''
    It is a little bit like me being a parent and, when my 
daughter would ask me for something, I would say, ``We will 
see.'' And it didn't take her long to figure out that ``We will 
see'' meant I am just trying to put this off, I don't want to 
talk about it right now, but I am probably not too keen on this 
idea.
    What is the hang-up here?
    Mr. Nedd. Congresswoman, certainly, as I said in my 
statement, we want to work with the committee to ensure we 
understand how the funding will be made for this. And the BLM 
worked for this settlement and, as you know, the BLM was 
involved--or the Department was involved in the drafting 
service.
    So again, we believe the bill is heading in the right step 
and we want to achieve the goal, but we just feel there are a 
few things that need to be discussed with the sponsors and the 
committee.
    Mrs. Lummis. OK. So that means--well, I will tell you how 
the funding works, because I am trying to be a good guy here.
    This bill doesn't have anything to do with Wyoming. This 
has to do with trying to help out the Navajo and trying to get 
Ark Land Company's property rights monetized.
    It will also help prevent a claim for a property rights 
taking. And that could be very expensive for the Department 
because, if Ark Land Company chooses to sue on a takings claim, 
the amount that they can quantify might even exceed the 
negotiated value of the bidding credits under the settlement.
    Now, you will recall, that is where I come in. These 
bidding credits are coming out of my state. So when you say the 
money is coming from Federal land elsewhere, it is coming 
from--I am the ``elsewhere.'' It is from Wyoming.
    So my role here is just to try to be a good guy and help 
the Navajo and the Ark Land Company settle this matter and get 
on with this agreement.
    Now, let me ask you, Mr. Phelps, do you think this 
settlement agreement is an equitable solution for the Federal 
Government, Ark Land, the Navajo, and the states impacted?
    Mr. Phelps. Thank you for your question.
    The position of the Navajo Nation basically goes back to 
the Settlement Act of 1974, where the Federal Government 
committed to provide unencumbered lands and lands that were 
taken. So----
    Mrs. Lummis. I appreciate that, and I get that, and I am 
sorry to interrupt you. I was kind of hoping that you could 
just say ``yes'' or ``no.''
    Can you say ``yes'' or ``no''? Do you think this is an 
equitable deal?
    Mr. Phelps. Well, the value question, basically, is of 
equal value.
    Mrs. Lummis. Thank you. Perfect.
    Mr. Phelps. This must be of equal value.
    Mrs. Lummis. Like that. OK.
    Mr. Nedd, do you disagree with that?
    Mr. Nedd. Congresswoman, again, we entered into a 
settlement, and under the settlement term we worked with Arch 
Coal to put forward some framework on how we can value the 
coal.
    So, again, we believe the goals are right of this bill. 
And, again, the Administration just wants to make certain it 
works with the sponsor to minimize the impact on taxpayers.
    Mrs. Lummis. OK. I am one of the sponsors. The other 
sponsor is not here.
    Mr. Nedd. So we----
    Mrs. Lummis. So let's talk. Here we are.
    Mr. Nedd. We would love to work with you, Congresswoman, 
and we certainly can do it here or we can come back and visit 
with you. But we would love to discuss with the sponsors how to 
do that and the committee.
    Mrs. Lummis. Well, you know what? Time is kind of 
a'wasting. You know, we are down to the wire here. So my time 
is expired. But, man, I would just like to get this done.
    Dr. Benishek. I would like to maybe try to finish it off. I 
agree with Mrs. Lummis.
    What is it you want?
    I can give you more time, Mrs. Lummis.
    Mr. Nedd. As we said, the Administration would certainly 
like to work with the committee to figure out how to minimize--
--
    Dr. Benishek. Well, she's asking what exactly, what are you 
asking for?
    Mr. Nedd. Well, Congressman, there is a range that has came 
up between $53 million and $240 million. And so the 
Administration would like to work through the committee to 
figure out how to minimize the cost to the taxpayer--$53 
million to $240 million is a wide variety--and then to figure 
out how to minimize the taxpayers' impact. And I think that is 
the accent here.
    The second accent is to really ensure Congress work with 
the Navajo Nation so they can have a way to deselect the lands. 
Those are the two major accents of the bill, or the 
Administration is asking.
    Mrs. Lummis. How does delaying this bill moving forward 
advance that conclusion? Would you like to have the bill 
written so it uses a specific number?
    Mr. Nedd. Again, Congresswoman, I believe it is going to 
take some discussion. But certainly $53 million always sound 
better than $240 million.
    Second thing. Would like to ensure there is some way the 
bill takes into account how to allow the Navajo to deselect the 
land so, therefore, the Interior would be able to manage these 
lands for its important environmental and cultural resources.
    So, again, I believe those are the major parts.
    Mrs. Lummis. Fair enough, Mr. Nedd. You answered my 
question. And I am happy to work with you. And I appreciate 
getting down to the specifics here. So thanks.
    Mr. Chairman, I yield back. And thank you for giving me the 
opportunity to explore it right here.
    Dr. Benishek. Might as well try to finish it off a little 
bit. Yes.
    Mrs. Lummis. OK. Thank you very much.
    Dr. Benishek. Well, one final order of business.
    I ask unanimous consent to enter into the record a 
submission in support of H.R. 5066 from the Michigan Geological 
Survey, the Michigan Geological Repository for Research and 
Education.
    And hearing no objection, so ordered.
    If there is no other business, without objection, the 
committee is adjourned.

    [Whereupon, at 2:59 p.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

  Prepared Statement of Kevin Gallagher, U.S. Geological Survey, U.S. 
                Department of the Interior on H.R. 5066

    Thank you, Mr. Chairman, for inviting the Department of the 
Interior to provide its views on H.R. 5066, the Data Preservation Act 
of 2014, to reauthorize the National Geological and Geophysical Data 
Preservation Program through 2019.

    The Energy Policy Act of 2005 established the National Geological 
and Geophysical Data Preservation Program (NGGDPP) and outlined the 
following goals:

    <bullet> Archive geological, geophysical, and engineering data, 
            maps, well logs, and samples;

    <bullet> Provide a national catalog of archived materials; and

    <bullet> Provide technical and financial assistance to state 
            geological surveys and relevant Department of the Interior 
            bureaus for archived materials.

    Through this partnership with the state geological surveys, the 
Department of the Interior plays a leading role in the Federal 
collection, management and preservation of geological and geophysical 
data.

    Since 2007 the NGGDPP, administered by the U.S. Geological Survey, 
has provided 44 states with almost $4.6M which, when matched by the 
states, amounts to over $9M invested in the rescue and preservation of 
geoscience collections. These preserved data have been used in 
discoveries that have brought significant benefit to local and state 
economies. In addition, over 2.6M geoscience data records have been 
entered into the National Digital Catalog, an Internet-accessible 
library describing the geologic collections located in Federal and 
state repositories.

    There are numerous examples of Federal and state partnerships that 
we have funded via this program, and we would like to highlight three 
of those.

    <bullet> In 2009, the Michigan Geological Survey received Program 
            funds to prepare accurate inventories of rescued core from 
            western Michigan. A search of this inventory by a potash 
            company scientist revealed a large deposit of high grade 
            potassium chloride, a critical ingredient in fertilizer. In 
            September 2013, this deposit was estimated to be worth 
            $65M, and if mined, would create an estimated 300 jobs.

    <bullet> Most of the characterization work for tar sand deposits in 
            western Kentucky took place in the early 1900s, with a 
            second brief round of interest after the 1974 Arab oil 
            embargo. Using funds from this program, the Kentucky 
            Geological Survey was able to preserve these historical tar 
            sand cores that had been slated for disposal. Inspection of 
            samples in these cores by exploration geologists led to the 
            initiation of a $5M exploration program that culminated in 
            a proven deposit in Kentucky.

    <bullet> Last, preservation of geological and geophysical data and 
            samples has proven invaluable in the continued research on 
            the Bakken shale from the Williston Basin in North Dakota 
            and Montana. The USGS Core Research Center in Denver houses 
            core samples from this region. Over the last 10 years, 
            these well-preserved cores have been accessed providing 
            many private, academic and Federal research scientists with 
            information key in the discovery and advancement of the 
            existing and potential energy resources in the Williston 
            Basin.

    The Department of the Interior supports H.R. 5066, the Data 
Preservation Act of 2014, in order to provide continued funding for 
state and Federal partnerships ensuring the rescue and continued 
preservation of geological and geophysical samples and data. We thank 
Representative Benishek for introducing this legislation.

    Preserving endangered geoscience collections is significantly more 
cost effective than recollecting these samples and data. Properly 
housing, inventorying and curating these collections, as we have 
identified for you today, provides an invaluable resource that 
underpins a wide variety of research, which can lead to important 
discoveries, new jobs and a stronger economy.

    Mr. Chairman, again, we thank you for this opportunity. We will be 
pleased to respond to any questions you may have.

                                 ______
                                 

  Submission for the Record in Support of H.R. 5066 from the Michigan 
Geological Survey, the Michigan Geological Repository for Research and 
                               Education

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               [all]
</pre></body></html>
